APPENDIX TABLE OF CONTENTS
OPINIONS AND ORDERS
Opinion of the United States Court of Appeals for
the Ninth Circuit (August 20, 2019) .................. 1a
Memorandum Opinion of the United States
Court of Appeals for the Ninth Circuit
(August 20, 2019) ............................................. 14a
Order of the United States District Court for the
District of Arizona (June 8, 2017) .................... 20a
Order of the United States District Court for the
District of Arizona (March 31, 2017) ............... 25a
REHEARING ORDERS
Order of the United States Court of Appeals for
the Ninth Circuit Granting Extension of Time
to File Petition for Rehearing
(August 26, 2019) ............................................. 59a
Order of the United States Court of Appeals for
the Ninth Circuit Denying Petition for
Rehearing En Banc (November 5, 2019) ......... 60a

APPENDIX TABLE OF CONTENTS (Cont.)
STATUTORY PROVISIONS
Relevant Statutory Provisions ............................... 61a
42 U.S.C. § 12112
Discrimination
(Effective: January 1, 2009) ............................. 61a
42 U.S.C. § 12112
Discrimination
(Effective: to December 31, 2008) ................... 67a
42 U.S.C. § 2000e-2
Unlawful Employment Practices ..................... 73a
42 U.S.C. § 12117
Enforcement ..................................................... 84a
42 U.S.C. § 2000e-5
Enforcement Provisions ................................... 85a
TRIAL TRANSCRIPTS
Michael Murray–Direct Examination
Reporter’s Transcript of Proceedings,
Jury Trial Day 1, Excerpt
(August 15, 2017) ............................................. 98a
Michael Murray–Direct Examination
Reporter’s Transcript of Proceedings,
Jury Trial Day 2, Excerpt
(August 16, 2017) ........................................... 100a
Plaintiff’s Closing Argument
Reporter’s Transcript of Proceedings,
Jury Trial Day 5, Excerpt
(August 22, 2017) ........................................... 125a

APPENDIX TABLE OF CONTENTS (Cont.)
OTHER DOCUMENTS
First Amended Complaint (Jury Trial Requested)
(August 29, 2014) ........................................... 128a
Memo Letter to Dr. Murray
(May 19, 2014) ................................................ 153a

App.1a
OPINION OF THE UNITED STATES COURT OF
APPEALS FOR THE NINTH CIRCUIT
(AUGUST 20, 2019)
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
________________________
MICHAEL J. MURRAY, M.D. – a Married Man,

Plaintiff-Appellant,
v.
MAYO CLINIC, a Minnesota Nonprofit Corporation;
MAYO CLINIC ARIZONA, an Arizona Nonprofit
Corporation; WYATT DECKER, M.D.-Husband;
GEORGIANNA DECKER, Wife; LOIS KRAHN,
M.D.-Wife; ERIC GORDON, M.D.-Husband;
TERRENCE TRENTMAN, M.D.-Husband;
LARALEE TRENTMAN, Wife; WILLIAM STONE,
M.D.-Husband; MAREE STONE, Wife;
DAVID ROSENFELD, M.D.-Husband;
MELISSA ROSENFELD, M.D.-Wife;
ROSHANAK DIDEHBAN, a Single Woman,

Defendants-Appellees.
________________________
No. 17-16803
D.C. No. 2:14-cv-01314-SPL
Appeal from the United States District Court
for the District of Arizona
Steven Paul Logan, District Judge, Presiding

App.2a
Before: Ronald M. GOULD and
Sandra S. IKUTA, Circuit Judges,
and Benita Y. PEARSON, District Judge.
PEARSON, District Judge:
Plaintiff Michael Murray appeals the district
court’s instruction to the jury on his claim under the
Americans with Disabilities Act (“ADA”), requiring him
to prove that he was discharged because of his disability. Murray claims that our decision in Head v.
Glacier Northwest, Inc., 413 F.3d 1053 (9th Cir. 2005),
holding ADA discrimination claims are evaluated
under a motivating factor causation standard, remains
good law. Because it is not, we affirm.1
I.
Dr. Murray filed suit against Mayo Clinic, Mayo
Clinic Arizona, Drs. Wyatt Decker, Lois Krahn, Terrence Trentman, William Stone, and David Rosenfeld,
and Operations Administrator Roshanak Didehban.
In anticipation of trial, the parties submitted joint
proposed jury instructions. The parties disagreed
whether Murray’s ADA discrimination claim should be
tried under a but-for causation standard or a motivating
factor causation standard. Murray argued that our
decision in Head required him to show only that the
defendants’ belief that he had a disability was a

 The Honorable Benita Y. Pearson, United States District Judge
for the Northern District of Ohio, sitting by designation.
1 In a memorandum disposition filed simultaneously with this
opinion, we affirm the district court as to all other issues raised
by Murray.

App.3a
motivating factor in their adverse employment decision.
He accordingly requested the following instruction:
As to Dr. Murray’s claim that his disability
was the reason for Mayo Clinic Arizona’s
decision to discharge him, Dr. Murray has
the burden of proving the following evidence
by a preponderance of the evidence:
[...]
3. Dr. Murray was discharged because Defendants regarded him as disabled, which means
that Defendants’ belief that Plaintiff had a
disability was a motivating factor in Defendants’ decision to terminate him.
The district court instead instructed the jury to apply
a but-for causation standard to Murray’s ADA claim.
The instruction provided that Murray must prove he
was discharged because of his disability:
As to Dr. Murray’s claim that his disability
was the reason for Mayo Clinic Arizona’s
decision to discharge him, Dr. Murray has
the burden of proving the following evidence
by a preponderance of the evidence:
[...]
3. Dr. Murray was discharged because of his
disability.
In denying Murray’s motion for reconsideration, the
district court found that the Supreme Court’s rulings
in Gross v. FBL Financial Services, Inc., 557 U.S. 167
(2009), and University of Texas Southwestern Medical
Center v. Nassar, 570 U.S. 338 (2013), abrogated our
reasoning in Head. The district court concluded that
the but-for causation standard applied.

App.4a
At trial, the jury returned a verdict for Defendants
on all claims. Following entry of judgment, Murray
timely filed a notice of appeal.
II.
“A district court’s formulation of the jury instructions is reviewed for ‘abuse of discretion.’ If, however,
‘the instructions are challenged as a misstatement of
the law, they are then reviewed de novo.’” Duran v.
City of Maywood, 221 F.3d 1127, 1130 (9th Cir. 2000)
(per curiam) (citation omitted) (quoting Gilbrook v.
City of Westminster, 177 F.3d 839, 860 (9th Cir.
1999), as amended on denial of reh’g (July 15, 1999)).
Jury instructions must fairly and adequately cover
the issues presented and must not be misleading.
Gantt v. City of Los Angeles, 717 F.3d 702, 706 (9th
Cir. 2013).
A.
Title I of the ADA provides that “[n]o covered
entity shall discriminate against a qualified individual
on the basis of disability in regard to job application
procedures, the hiring, advancement, or discharge of
employees, employee compensation, job training, and
other terms, conditions, and privileges of employment.” 42 U.S.C. § 12112(a) (emphasis added).
Title I of the ADA also contains an enforcement
provision, which cross-references specific portions of
Title VII:
The powers, remedies, and procedures set
forth in sections 2000e-4, 2000e-5, 2000e-6,
2000e-8, and 2000e-9 of [Title VII] shall be
the powers, remedies, and procedures this

App.5a
subchapter provides to . . . any person alleging
discrimination on the basis of disability in
violation of any provision of this chapter. . . .
42 U.S.C. § 12117(a). Of the cross-referenced sections,
only § 2000e-5 references a causation standard. Specifically, that section provides: “[o]n a claim in which
an individual proves a violation under section 2000e2(m) of this title and a respondent demonstrates that
the respondent would have taken the same action in
the absence of the impermissible motivating factor,” the
court may award only limited relief. 42 U.S.C. § 2000e5(g)(2)(B). Section 2000e-2(m), in turn, provides that
“an unlawful employment practice is established when
the complaining party demonstrates that race, color,
religion, sex, or national origin was a motivating factor
for any employment practice, even though other
factors also motivated the practice.”
B.
We first analyzed the standard for causation in
a Title I ADA discrimination action in Head v.
Glacier Northwest, Inc. In that case, we addressed
“whether the ADA’s use of the causal language
‘because of,’ ‘by reason of,’ and ‘because’ means that
discriminatory and retaliatory conduct is proscribed
only if it was solely because of, solely by reason of, or
solely because an employee was disabled or requested
an accommodation.” Head, 413 F.3d at 1063-64. We
concluded that, under the “plain language of the
ADA . . . ‘solely’ [was] not the appropriate causal standard under any of the ADA’s liability provisions.” Id.
at 1065.
Considering whether the ADA instead requires
but-for causation, or merely a showing that the dis-

App.6a
ability was a motivating factor of the discrimination,
we joined seven other circuits in concluding that “a
‘motivating factor’ standard [was] most consistent
with the plain language of the statute and the purposes
of the ADA.” Id. We thus held “the ADA outlaws
adverse employment decisions motivated, even in
part, by animus based on a plaintiff’s disability or
request for an accommodation—a motivating factor
standard.” Id.
In so holding, we relied in part on the reasoning
of our sister circuits. See id. at 1065 n.63. The Fifth
and Eighth Circuits had held the motivating factor
standard applied to the ADA by virtue of the ADA’s
incorporation in § 12117 of Title VII’s remedies in
§ 2000e-5.2 See Buchanan v. City of San Antonio, 85
F.3d 196, 200 (5th Cir. 1996); Pedigo v. P.A.M. Transp.,
Inc., 60 F.3d 1300, 1301 (8th Cir. 1995).3
The Second and Seventh Circuits had concluded
that ADA discrimination claims, like Title VII discrimination claims, only required a showing that discrimination
motivated an employer’s adverse employment action.
This is because ADA and Title VII, at the time, both
used the words “because of” to indicate causation,
suggesting Congress intended the statutes to employ
the same causation standard. See Parker v. Columbia
2 Similarly, the Fourth Circuit had found the motivating factor
standard applied in a Title II ADA case through the ADA’s
incorporation in 42 U.S.C. § 12133 of the remedies set forth in
29 U.S.C. § 794a, which, in turn, incorporated the remedies in
42 U.S.C. § 2000e-5. Baird ex rel. Baird v. Rose, 192 F.3d 462,
470 (4th Cir. 1999).
3 The First Circuit relied on Pedigo, without additional analysis,
in applying the motivating factor standard. Katz v. City Metal
Co., 87 F.3d 26, 33 (1st Cir. 1996).

App.7a

Pictures Indus., 204 F.3d 326, 337 (2d Cir. 2000),
overruled by Natofsky v. City of New York, 921 F.3d
337 (2d Cir. 2019); Foster v. Arthur Andersen, LLP, 168
F.3d 1029, 1033 (7th Cir. 1999), overruled by Serwatka
v. Rockwell Automation Inc., 591 F.3d 957 (7th Cir.
2010). Both courts acknowledged that, although
§ 2000e-2(m) is not, by its terms, specifically applicable
to ADA cases, Congress intended the mixed-motive
framework to apply to ADA claims. Parker, 204 F.3d
at 337; Foster, 168 F.3d at 1033.
C.
Four years after our decision in Head, the Supreme
Court decided Gross v. FBL Financial Services, Inc. The
Court held that the Age Discrimination in Employment
Act (“ADEA”)—which makes it unlawful for an
employer to discharge or discriminate against any
individual “because of such an individual’s age”—requires the plaintiff to “prove that age was the ‘but-for’
cause of the employer’s adverse decision.” Gross, 557
U.S. at 177-78. In so doing, the Court declined to extend4 the “motivating factor” standard of causation to
employment discrimination cases brought under the
ADEA. Id. Four years after Gross, the Supreme
Court in Nassar again declined to extend the motivating
factor standard, this time to Title VII retaliation claims.
570 U.S. at 362-63.
Against this backdrop, “circuits have retreated
from the motivating factor standard of causation in
4 The Supreme Court recognized the “motivating standard” of causation as the appropriate standard for employment discrimination
actions brought under Title VII of the Civil Rights Act of 1964.
Price Waterhouse v. Hopkins, 490 U.S. 228, 258 (1989) (plurality
opinion).

App.8a
ADA cases.” Bukiri v. Lynch, 648 F. App’x 729, 731
n.1 (9th Cir. 2016) (collecting cases). We have not yet
decided whether Gross and Nassar have “eroded Head’s
vitality.” Mendoza v. Roman Catholic Archbishop of
L.A., 824 F.3d 1148, 1150 n.1 (9th Cir. 2016) (per
curiam). We do so now.
D.
Murray contends that the motivating factor
standard applies because we are bound by our decision
in Head. We disagree.
Generally, a three-judge panel may not overrule
a prior decision of the court. Miller v. Gammie, 335
F.3d 889, 899 (9th Cir. 2003) (en banc). If, however,
“an intervening Supreme Court decision undermines
an existing precedent of the Ninth Circuit, and both
cases are closely on point,” the three-judge panel may
then overrule prior circuit authority. Id. (quoting
Galbraith v. Cty. of Santa Clara, 307 F.3d 1119, 1123
(9th Cir. 2002)). The issue decided by the higher court
need not be identical. Id. at 900. The appropriate test
is whether the higher court “undercut the theory or
reasoning underlying the prior circuit precedent in
such a way that the cases are clearly irreconcilable.”

Id.

“The ‘clearly irreconcilable’ requirement is ‘a
high standard.’” United States v. Robertson, 875 F.3d
1281, 1291 (9th Cir. 2017) (quoting Rodriguez v. AT
& T Mobility Servs. LLC, 728 F.3d 975, 979 (9th Cir.
2013)). “It is not enough for there to be ‘some tension’
between the intervening higher authority and prior
circuit precedent, or for the intervening higher authority to ‘cast doubt’ on the prior circuit precedent.” Lair v.
Bullock, 697 F.3d 1200, 1207 (9th Cir. 2012) (internal

App.9a
citation omitted) (quoting United States v. Orm Hieng,
679 F.3d 1131, 1140-41 (9th Cir. 2012), and United
States v. Delgado-Ramos, 635 F.3d 1237, 1239 (9th
Cir. 2011) (per curiam)). If the court can apply prior
circuit precedent without running afoul of the intervening authority, it must do so. Id.
Because Head ’s reasoning is clearly irreconcilable
with Gross and Nassar, we overrule Head ’s holding
that a plaintiff bringing a discrimination claim under
Title I of the ADA need show only that a disability
was a motivating factor of the adverse employment
action. We hold instead that an ADA discrimination
plaintiff bringing a claim under 42 U.S.C. § 12112
must show that the adverse employment action
would not have occurred but for the disability.
In Head, we relied on the reasoning of our sister
circuits and our existing precedent in finding that a
motivating factor was most consistent with the ADA’s
plain language and purpose. Head, 413 F.3d at 1065
& nn.63-64. Our prior precedent, however, provides
no further analysis of the text or purpose of the ADA
in support of applying a motivating factor causation
standard. See Hernandez v. Hughes Missile Sys. Co.,
362 F.3d 564, 568 (9th Cir. 2004); Snead v. Metro.
Prop. & Cas. Ins. Co., 237 F.3d 1080, 1094 (9th Cir.
2001).5 Additionally, Gross and Nassar undercut the
reasoning set forth by our sister circuits.
5 Head noted Hernandez’s characterization of the burden on an
ADA plaintiff as “proving that ‘disability actually played a role
in the employer’s decisionmaking process and had a determinative
influence on the outcome.’” Head, 413 F.3d at 1065 (quoting
Hernandez, 362 F.3d at 568 (emphasis in Head)). Head also
observed Snead’s statement that a plaintiff must demonstrate that
“a discriminatory reason more likely motivated the employer.”

App.10a

Gross held that the ADEA, which also used
“because of” to indicate causation, did not permit
mixed-motive claims because “the ADEA’s text does
not provide that a plaintiff may establish discrimination by showing that age was simply a motivating
factor.” 557 U.S. at 174. The Court rejected the argument that Title VII decisions governed interpretation
of the ADEA on the basis that the two statutes were
distinguishable. Id. (“[W]e ‘must be careful not to apply
the rules applicable under one statute to a different
statute without careful and critical examination.’”
(quoting Fed. Exp. Corp. v. Holowecki, 552 U.S. 389,
393 (2008)). The Court explained,
Unlike Title VII, which has been amended
to explicitly authorize discrimination claims
where an improper consideration was a
‘motivating factor’ for the adverse action,
the ADEA does not provide that a plaintiff
may establish discrimination by showing that
age was simply a motivating factor. Moreover,
Congress neglected to add such a provision
to the ADEA when it added §§ 2000e-2(m)
and 2000e-5(g)(2)(B) to Title VII, even though
it contemporaneously amended the ADEA
in several ways.

Id. (citations omitted).
Gross’s reasoning directly contradicts the textual
reasoning Head and other courts applied to conclude
that Title VII’s motivating factor standard applied to
ADA claims. See Parker, 204 F.3d at 337; Foster, 168
Head, 413 F.3d at 1065 (quoting Snead, 237 F.3d at 1094
(emphasis in Head)). Neither statement requires a motivating
factor standard.

App.11a
F.3d at 1033. Like the ADEA, and unlike Title VII,
the ADA does not contain any explicit “motivating
factor” language. See Gross, 557 U.S. at 174. Rather,
Title I of the ADA provides that a plaintiff must
show discrimination “on the basis of disability.” 42
U.S.C. § 12112(a). Under Gross, the phrase “on the
basis of disability” indicates but-for causation. Gross,
557 U.S. at 176; see also Nassar, 570 U.S. at 350
(explaining Gross’s holding that “because of,” “by reason
of,” “on account of,” and “based on” all indicate a but-for
causal relationship).6

Nassar’s reasoning likewise directly undercuts
the reasoning of courts that relied on the ADA’s
incorporation in § 12117 of § 2000e-5. See Buchanan,
85 F.3d at 200; Pedigo, 60 F.3d at 1301; cf. Baird ex
rel. Baird v. Rose, 192 F.3d 462, 470 (4th Cir. 1999)
(ADA Title II’s incorporation of § 2000e-5). Nassar
rejected the argument that § 2000e-2(m), Title VII’s
motivating factor causation provision, applies to Title
VII retaliation claims. Nassar, 570 U.S. at 353. The
Court emphasized that “the text of the motivatingfactor provision, while it begins by referring to ‘unlawful
employment practices,’ then proceeds to address only
6 Title I of the ADA was amended in 2008 to prohibit discrimination
“on the basis of” disability, rather than “because of” disability.
We find no meaningful textual difference in the two phrases
with respect to causation. The Second and Fourth Circuits
likewise found no meaningful textual difference between the
two standards and found nothing in the legislative history
suggesting Congress intended to modify the ADA’s standard for
causation. Natofsky v. City of New York, 921 F.3d 337, 349-50
(2d Cir. 2019); Gentry v. E.W. Partners Club Mgmt. Co., 816
F.3d 228, 234 (4th Cir. 2016) (noting that the ADA amendment
was enacted before Gross, and was therefore not in response to
Gross’s causation analysis).

App.12a
five of the seven prohibited discriminatory actions—
actions based on the employee’s status, i.e., race,
color, religion, sex, and national origin.” Id. According
to Nassar, the plain language of § 2000e-2(m) barred
its application to retaliation claims, and “it would be
improper to conclude that what Congress omitted
from the statute is nevertheless within its scope.” Id.
The same logic applies to Title I ADA discrimination claims. Relief under § 2000e-5(g)(2)(B) is available
only if the plaintiff proves a violation under § 2000e2(m). Section 2000e-2(m) narrowly prohibits the consideration of race, color, religion, sex, or national origin
as a motivating factor for any employment practice. It
does not prohibit the consideration of disability. Congress’s express listing of these status-based considerations under § 2000e-2(m) is best understood as an
exclusion of all other considerations. See, e.g., Silvers
v. Sony Pictures Entm’t, Inc., 402 F.3d 881, 885 (9th
Cir. 2005) (“The doctrine of expressio unius est exclusio
alterius ‘as applied to statutory interpretation creates
a presumption that when a statute designates certain
persons, things, or manners of operation, all omissions should be understood as exclusions.’” (quoting
Boudette v. Barnette, 923 F.2d 754, 756-57 (9th Cir.
1991))). Section 2000e-2(m), by its plain language, is
inapplicable to claims of disability discrimination.
Because Head ’s reasoning—whether based on
the ADA’s cross-reference to § 2000e-5(g)(2)(B) or on
the ADA’s text—is irreconcilable with subsequent
Supreme Court precedent, it cannot stand.
III.
Our decision comports with the decisions of all of
our sister circuits that have considered this question

App.13a
after Gross and Nassar. The Second, Fourth, and
Seventh Circuits found the Supreme Court’s intervening jurisprudence to be dispositive of the issue.
See Natofsky, 921 F.3d at 348 (“Gross and Nassar
dictate our decision here.”); Gentry v. E.W. Partners
Club Mgmt. Co., 816 F.3d 228, 234 (4th Cir. 2016)
(“The Supreme Court’s analysis in Gross dictates the
outcome here.”); Serwatka, 591 F.3d at 963 (“But in
view of the Court’s intervening decision in Gross, it is
clear that the district court’s decision . . . cannot be
sustained.”). The Sixth Circuit, following en banc
review, similarly held that Gross’s reasoning was
controlling. Lewis v. Humboldt Acquisition Corp.,
681 F.3d 312, 318 (6th Cir. 2012) (en banc) (“[Gross’s]
rationale applies with equal force to the ADA.”).
We agree. Gross and Nassar undermine Head ’s
reasoning such that the cases are clearly irreconcilable.
We join our sister circuits in holding that ADA discrimination claims under Title I must be evaluated under
a but-for causation standard.
AFFIRMED.

App.14a
MEMORANDUM OPINION OF THE
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
(AUGUST 20, 2019)
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
________________________
MICHAEL J. MURRAY, M.D. – a Married Man,

Plaintiff-Appellant,
v.
MAYO CLINIC, a Minnesota Nonprofit
Corporation; Et Al.,

Defendants-Appellees.
________________________
No. 17-16803
D.C. No. 2:14-cv-01314-SPL
Appeal from the United States District Court
for the District of Arizona
Steven Paul Logan, District Judge, Presiding
Before: GOULD and IKUTA, Circuit Judges,
and PEARSON, District Judge.

 This disposition is not appropriate for publication and is not
precedent except as provided by Ninth Circuit Rule 36-3
 The Honorable Benita Y. Pearson, United States District
Judge for the Northern District of Ohio, sitting by designation.

App.15a
Plaintiff Michael Murray timely appeals from the
district court’s granting of Defendants’ motion for
partial summary judgment, its instructions to the jury,
and its evidentiary rulings. We address Murray’s
challenge to the district court’s jury instruction regarding the applicable causation standard for his ADA
discrimination claim in a concurrently-filed opinion.
1. The district court properly applied the factors
under Leisek v. Brightwood Corp., 278 F.3d 895 (9th
Cir. 2002), and correctly granted summary judgment
on Murray’s claim for wrongful discharge in violation
of the Uniformed Services Employment and Reemployment Rights Act (USERRA), 38 U.S.C. § 4311(a),
because no genuine issue of material fact exists regarding
whether Murray’s termination was motivated by antimilitary animus. Viewed in the light most favorable
to Murray, Defendants’ intraoffice emails do not rise
to the level of expressed hostility. Nor is the threemonth gap between Murray’s return from medical
leave and Defendants’ investigation of his conduct in
the operating room, in and of itself, sufficient to support an inference of discrimination based on temporal
proximity. Murray experienced no negative treatment
from his employer during this period of time, and his
placement on administrative leave occurred immediately after the incident in the operating room. Moreover,
neither Defendants’ decision not to report Murray’s
conduct in the operating room to the Arizona Medical
Board nor Drs. Krahn and Trentman’s questions concerning Murray’s anger outbursts and concentration
issues are inconsistent with Defendants’ decision to
terminate Murray based on his conduct. Finally,
Murray fails to explain how Dr. Krahn’s involvement
in Murray’s medical case after she handed the matter

App.16a
off to Occupational Medicine is evidence of disparate
treatment.
In the alternative, Defendants affirmatively established that they would have terminated Murray without
regard to his military service, based on the incident in
the operating room. By his own admission, Murray
grabbed Dr. Chien by the shoulders, pushed him, and
yelled at him not to touch the equipment. Murray
then screamed at Dr. Chien to leave the room. Murray
later admitted to Drs. Trentman and Krahn that his
behavior was inappropriate. Murray, aware that Mayo
Clinic Arizona had terminated a Certified Registered
Nurse Anesthetist with no military affiliation for a
similar reason, confessed to his psychiatrist shortly
after the incident that he was worried he would be
terminated. For the same reasons, the district court
correctly granted summary judgment on Murray’s
claim for wrongful discharge in violation of USERRA,
38 U.S.C. § 4316(c), because there is no genuine issue
of material fact that Defendants lacked cause to
terminate Murray.
2. The district court properly granted summary
judgment on Murray’s FMLA and ADA claims against
Mayo Clinic on the grounds that Mayo Clinic was not
Murray’s employer under the FMLA and Murray
failed to exhaust his administrative remedies. Murray
produced evidence suggesting only that Mayo Clinic
Arizona is a subsidiary of Mayo Clinic. Evidence of a
parent-subsidiary relationship is insufficient to impute
liability to the parent corporation. See United States
v. Bestfoods, 524 U.S. 51, 69 (1998) (corporate personalities are distinct). Additionally, Murray made his
EEOC charge against only one entity—“Mayo Clinic

App.17a
in Arizona.” He did not exhaust his administrative
remedies against Mayo Clinic.
3. The district court did not abuse its discretion
by instructing the jury on Mayo Clinic Arizona’s
“direct threat” affirmative defense. In its original
Answer, Defendant pleaded that Murray’s ADA claims
were barred because “[a]ny requested accommodation
would impose a direct threat to the health and safety
of patients and co-workers.” Later, Murray voluntarily
dismissed with prejudice his failure to provide reasonable accommodation claim. After a hearing on the issue,
the district court instructed the jury on the defense.
Although Defendants’ affirmative defense was imprecisely pleaded, the district court did not abuse its discretion by liberally construing Defendants’ operative
Answer.
4. The district court did not err by refusing to
adopt Murray’s requested jury instruction to find
causation for Murray’s ADA discrimination claim if
Murray’s termination was “motivated in part by
[Defendants’] concern over conduct that may result
from a disability that they regarded him as having[.]”
This standard was derived from Gambini v. Total
Renal Care, Inc., in which we held that “a jury must
be instructed that it may find that the employee was
terminated on the impermissible basis of her disability”
when the employee establishes a causal link between
the termination and conduct arising from the disability.
486 F.3d 1087, 1093 (9th Cir. 2007). Gambini’s reasoning does not extend to regarded-as ADA claims.
“[C]onduct resulting from a disability is considered to
be part of the disability, rather than a separate basis
for termination.” Mayo v. PCC Structurals, Inc., 795
F.3d 941, 946 (9th Cir. 2015) (quoting Humphrey v.

App.18a

Mem’l Hosps. Ass’n, 239 F.3d 1128, 1139-40 (9th Cir.
2001)). Furthermore, Murray, who alleged no disability
and requested no accommodations, has not shown
that his conduct resulted from a regarded-as disability.
5. The district court did not err by refusing to
adopt Murray’s proposed jury instruction allowing
the jury to impute “his supervisors’ bias and discriminatory motive . . . to the ultimate decisionmakers,
regardless of whether the ultimate decisionmakers
actually regarded Dr. Murray as disabled or held any
discriminatory bias of their own when they decided to
terminate Dr. Murray.” Subordinate bias liability does
not apply to FMLA interference claims. “In interference
claims, the employer’s intent is irrelevant to a determination of liability.” Sanders v. City of Newport, 657
F.3d 772, 778 (9th Cir. 2011). Liability under a “cat’s
paw” theory, by contrast, is predicated on the imputation of a supervisor’s bias onto an employer. See Staub
v. Proctor Hosp., 562 U.S. 411, 414, 421 (2011) (“The
employer is at fault because one of its agents committed an action based on discriminatory animus that
was intended to cause, and did in fact cause, an
adverse employment decision.”). Moreover, the district
court adequately instructed the jury on Murray’s theory
of subordinate bias liability with regard to his ADA
discrimination claim.
6. The district court did not abuse its discretion
in excluding evidence of a witness’s drug use and of
Defendants’ intraoffice emails. The district court reasonably determined that the witness’s drug use 21
months after the operating room incident was too
remote in time to be relevant. See United States v.
Bibo-Rodriguez, 922 F.2d 1398, 1400 (9th Cir. 1991).
Additionally, the excluded intraoffice emails are irrel-

App.19a
evant to Murray’s FMLA and ADA claims. See Fed.
R. Evid. 402. Even assuming arguendo that the emails
had relevance, any probative value is substantially
outweighed by the danger of confusing the issue of
Murray’s dismissed USERRA claims with his FMLA
and ADA claims. See Fed. R. Evid. 403.
AFFIRMED.

App.20a
ORDER OF THE UNITED STATES DISTRICT
COURT FOR THE DISTRICT OF ARIZONA
(JUNE 8, 2017)
IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF ARIZONA
________________________
MICHAEL J. MURRAY, M.D.,

Plaintiff,
v.
MAYO CLINIC, ET AL.,

Defendants.
________________________
No. CV-14-01314-PHX-SPL
Before: Honorable Steven P. LOGAN,
United States District Judge.
Before the Court is Plaintiff’s Request for Clarification of March 31, 2017 Order and June 2, 2017
Minute Order and Motion for Order of Final Judgment
Pursuant to Fed. R. Civ. P. 54(b). (Doc. 266.)

App.21a
I.

Motion for Clarification1
A. Background Facts

The “Background” section in the Court’s summary
judgment Order (Doc. 228) described the events of
February 19, 2014 as “hotly disputed.” (Doc. 228 at
2.) The background section gave an overview of the
dispute between the parties. The Court did not state
or infer that it was making any findings of fact in the
“Background” section.
B. Dr. Bright’s Testimony
Both parties have listed Dr. Bright as a witness
and his testimony is relevant to the FMLA claim.
Plaintiff may challenge the accuracy and completeness
of Dr. Bright’s statements pursuant to the Federal
Rules of Evidence.
C. Cause for Termination
The Court found that Defendants had cause to
terminate Dr. Murray. (Doc. 228 at 11, 20.) Whether
under USERRA, FMLA, or the ADA, a plaintiff may
argue that the reasons a defendant provided for termination were pretextual. For example, under the FMLA,
a plaintiff needs to prove that the FMLA leave was a
negative factor in his or her termination. It is possible
that Defendants had a legitimate non-discriminatory
reason to terminate Plaintiff and negatively viewed
his FMLA leave. Plaintiff may not, however, argue
1 Although the Court attempts to clarify the issues for Plaintiff,
the Court is not making broad evidentiary rulings. Any evidence
or testimony submitted at trial must comply with the Federal
Rules of Evidence, and are subject to objection by the opposing
party.

App.22a
that the incident in the OR was not a valid reason for
termination.
D. Discriminatory Motive Analysis
In summary judgment briefing, Plaintiff alleged
that Defendants’ behavior was inconsistent, which was
one of the factors necessary to prove a discriminatory
motive through circumstantial evidence. The Court
found no inconsistency. (Doc. 228 at 15-17.) However,
the Court analyzed the evidence as it specifically
applied to proving a discriminatory motive in violation
of 42 U.S.C. § 4311. Plaintiff may present evidence to
support his legal theory. The same analysis holds
true for Plaintiff’s perceived delay in termination. He
may raise the argument.
E. Plaintiff’s Motion in Limine
At the final pretrial conference held on June 2,
2017, the Court denied Plaintiff’s overly-broad motion
in limine to preclude “evidence of Dr. Murray’s personal
medical history, diagnoses, and treatment—including
the IME conducted in this case . . .” (Doc. 244 at 1.)
The Court also ruled that it “will allow testimony as
it relates to doctor visits after the incident and while
on FMLA leave.” (Doc. 264.) The Court clarifies that
this ruling includes Dr. Murray’s voluntary visits to
any doctor after the incident, up to and including the
completion of his FMLA leave. These parameters do
not include the IME of Dr. Murray. Plaintiff’s motion,
including suppression of the IME, was denied without
prejudice. The parties may raise individual objections
to medical evidence submitted at trial.

App.23a
II.

Motion for Final Judgment

Plaintiff also moves the Court to certify its March
31, 2017 Order as a final and appealable judgment
pursuant to Rule 54(b) of the Federal Rules of Civil
Procedure. (Doc. 266 at 4-5.) Defendants oppose the
motion. (Doc. 267.) Rule 54(b) permits the court, at its
discretion, to direct entry of judgment on less than
all of the parties or claims. Fed. R. Civ. P. 54(b). “Judgments under Rule 54(b) must be reserved for the
unusual case in which the costs and risks of multiplying the number of proceedings and of overcrowding
the appellate docket are outbalanced by pressing needs
of the litigants for an early and separate judgment as
to some claims or parties. . . . A similarity of legal or
factual issues will weigh heavily against entry of
judgment under the rule, and in such cases a Rule 54
(b) order will be proper only where necessary to avoid
a harsh and unjust result, documented by further
and specific findings.” Morrison-Knudsen Co., Inc. v.
Archer, 655 F.2d 962, 965 (9th Cir. 1981).
Here, the similarity of factual issues militates
against entry of a final order. Plaintiff’s First Amended
Complaint identifies several different legal theories
as to why he was improperly discharged, which is
common in employment discrimination actions. See
Wood v. GCC Bend, LLC, 422 F.3d 873, 879 (9th Cir.
2005). The underlying factual events are the same.
Permitting an interlocutory appeal would only serve to
unnecessarily delay resolution of the entire case.
Additionally, Plaintiff has not identified any harsh or
unjust result that would occur by following the ordinary
course of appeal. The motion will be denied. Accordingly,

App.24a
IT IS ORDERED that Plaintiff’s motion for clarification (Doc. 266) is granted in part. It is granted to
the extent the Court clarified its’ ruling as discussed
above. It is denied to the extent that Plaintiff seeks a
final order on Counts I and II pursuant to Fed. R.
Civ. P. 54(b).
Dated this 8th day of June, 2017.
/s/ Honorable Steven P. Logan
United States District Judge

App.25a
ORDER OF THE UNITED STATES DISTRICT
COURT FOR THE DISTRICT OF ARIZONA
(MARCH 31, 2017)
IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF ARIZONA
________________________
MICHAEL J. MURRAY,

Plaintiff,
v.
MAYO CLINIC, ET AL.,

Defendants.
________________________
No. CV-14-01314-PHX-SPL
Before: Honorable Steven P. LOGAN,
United States District Judge.
Before the Court is Plaintiff’s Motion for Partial
Summary Judgment (Doc. 198), Defendants’ Motion
for Partial Summary Judgment (Doc. 194), and Defendants’ Motion to Exclude Expert Testimony and Opinions
of Jeffrey Vender, M.D. (Doc. 193).
I.

Background

Plaintiff Michael J. Murray, M.D., filed this lawsuit
against Defendants Mayo Clinic, Mayo Clinic Arizona
(“MCA”), Drs. Wyatt Decker, Lois Krahn, Terrence
Trentman, William Stone, David Rosenfeld, and Operations Administrator Roshanak Didehbon. (Doc. 1.)

App.26a
Dr. Murray filed a First Amended Complaint (“FAC”)
on August 29, 2014. (Doc. 14.) Dr. Rosenfeld has
since been dismissed. (Doc. 192.) Dr. Murray brought
this action for violations of the Uniformed Services
Employment and Reemployment Rights Act, 38 U.S.C.
§ 4301, et seq. (“USERRA”), the Americans with Disabilities Act, 42 U.S.C. § 12101, et seq. (“ADA”), and
the Family Medical Leave Act, 29 U.S.C. § 2601, et
seq. (“FMLA”). The following counts remain: Count I
for wrongful discharge in violation of § 4311(a) of
USERRA against all Defendants, Count II for wrongful
discharge in violation of § 4316(c) of USERRA against
all Defendants, Count IV for discriminatory termination
in violation of the FMLA against Mayo Clinic, MCA,
and Dr. Krahn, and Count VI for unlawful termination
in violation of the ADA against Mayo Clinic and
MCA. (Docs. 14, 26, 123.)
Dr. Murray joined the Army Reserves in 1977.
(Doc. 203 at 125.) He began working at the Mayo Clinic
in Rochester, Minnesota in 1986 and worked there
until 2000. (Doc. 203 at 124.) Dr. Murray transferred to
Mayo Clinic in Jacksonville, Florida and worked there
from 2000-2007. (Id.) In 2007, Dr. Murray transferred
to MCA and worked there until his termination on
May 19, 2014. (Doc. 203 at 42.) While employed with
Mayo Clinic collectively, Dr. Murray was deployed
multiple times. Two of those deployments occurred
while he was employed at MCA. (Doc. 203-1 at 3.)
The second deployment began on March 20, 2012,
and Dr. Murray was originally scheduled to return
on October 16, 2012. (Doc. 203 at 91.) Dr. Murray’s
military orders were repeatedly changed, and he was
ultimately discharged on October 22, 2013. (Doc. 203
at 92-99.) He returned to work at MCA as an

App.27a
anesthesiologist on November 20, 2013. (Doc. 194 at 3.)
His return appears to have gone smoothly until February 19, 2014, the date of the incident (the “Incident”).
(Docs. 199 ¶ 18; 210 ¶ 18.) The events of February 19,
however, are hotly disputed.
Dr. James Chien entered the operating room
(“OR”) shortly after 3:00 p.m.1 He needed to update
Dr. Murray on a patient being handed over to Dr.
Murray. He stood by the door waiting until Dr.
Murray was free to talk. Certified Registered Nurse
Anesthetist (“CRNA”) Jennifer Warner was starting
to inject the patient with propofol. Dr. Murray was
typing on the anesthesia computer keyboard. Ms.
Warner realized that the blood pressure cuff was
about to inflate in 30 seconds, which would interfere
with the injection of propofol. She asked Dr. Murray
to stop the blood pressure cuff from cycling. Dr.
Murray hit the go/stop button which caused the
blood pressure cuff start to inflate.2 This caused the
patient to complain of burning and her arm started
to raise. Ms. Warner asked Dr. Murray to hit the
button again, which would cause the cuff to deflate.
Dr. Murray did so. However, using the go/stop button
did nothing to reset the blood pressure timer and the
cuff was getting ready to inflate again. Dr. Murray
had returned his attention to the anesthesia computer
and Ms. Warner had her back to the vital signs display,
1 The following facts are primarily derived from the interviews
of the witnesses unless otherwise noted. (Doc. 205-2 at 24-31.)
2 There are three ways to control the blood pressure cuff: on the
computer monitor with a go/stop button, a dial, and by disconnecting the tube. Dr. Murray used the computer monitor. (Doc.
203-1 at 80.)

App.28a
leaving Dr. Chien as the only one who noticed that the
blood pressure cuff was going to inflate again within
20 seconds. Dr. Chien walked over to Dr. Murray and
the machine stating, “That didn’t stop the cuff; let
me help you turn it off.” Dr. Murray states that Dr.
Chien did not say anything. (Doc. 203-1 at 78.) Dr.
Chien reached over to the dial to turn off the blood
pressure timer.
Dr. Murray turned to face Dr. Chien and told
him to take his hands off the machine and to never
touch his anesthesia machine. Dr. Murray’s tone was
so serious that everyone in the room thought Dr.
Murray was joking. Dr. Chien laughed a little, withdrew
his hand, but remained standing in the same spot.
Dr. Murray then raised his voice and forcefully stated
that he was serious and that no one touches his
anesthesia machine. He further told Dr. Chien to get
away from the machine. Dr. Murray then got so close
to Dr. Chien that they were physically contacting,
which caused Dr. Chien to stumble backwards. Dr.
Chien began apologizing, but Dr. Murray continued
advancing on Dr. Chien. Dr. Murray commanded
that Dr. Chien immediately leave the OR. As Dr.
Chien backed up, Dr. Murray continued advancing
on Dr. Chien. Dr. Chien turned and left.
Later, Dr. Chien tracked down Dr. Murray because
he still needed to update him on the patient. Dr. Chien
waited outside of the entrance of the OR. When Dr.
Murray left the OR, Dr. Chien called to Dr. Murray,
but Dr. Murray did not respond or acknowledge Dr.
Chien, and walked right past him. Dr. Chien followed
Dr. Murray and waited outside another OR for Dr.
Murray to leave. Dr. Chien again addressed Dr. Murray
by name, and this time, Dr. Murray stopped. Dr. Chien

App.29a
again apologized and Dr. Murray said “apology accepted.” Dr. Murray stated that if he needs someone’s help,
he will ask for it. Dr. Chien then asked Dr. Murray
to accompany him to the PACU to discuss the patient
Dr. Chien had signed over to Dr. Murray. Dr. Chien
explained that he had had to reintubate the patient
and explained why. Dr. Murray smiled, rolled his
eyes, began chuckling and shaking his head from
side to side. Dr. Chien took this to mean that Dr.
Murray thought he had made a mistake. He expected
Dr. Murray to explain or elaborate, but Dr. Murray
said “I’ll take care of it.” When Dr. Chien did not
leave right away, Dr. Murray made the sign of the
cross and said “You can leave now,” at which point
Dr. Chien left.
On February 20, 2014, Dr. David Rosenfeld, Vice
Chair of the Anesthesiology Department, and Roshanak
Didehban, Operations Administrator, interviewed Dr.
Murray. (Doc. 205-1 at 21.) Dr. Murray considered Dr.
Chien to be the wrongdoer and felt no need to apologize for his actions. (Id.) Dr. Murray indicated that
he raised his voice to Dr. Chien, but does not remember
any physical contact. He did not feel that this was a
significant issue. (Doc. 205-2 at 24.) Later that day,
Dr. Krahn, Dr. Rosenfeld, and Ms. Didehban contacted
Dr. Murray by phone. (Doc. 205-2 at 31.) Dr. Krahn
told Dr. Murray that this was a serious matter and
placed Dr. Murray on administrative leave while they
investigated. (Id.) Dr. Murray agreed the matter was
very serious. (Id.) Dr. Rosenfeld and Ms. Didehban
began the investigation into the Incident by interviewing the witnesses. (Docs. 199 ¶ 22; 210 ¶ 22.) When
Dr. Trentman returned from his absence, Dr. Rosenfeld
and Ms. Didehban turned over the investigation to him.

App.30a
(Doc. 205-3 at 177.) Ms. Didehban had limited involvement after that point. (Id.)
On February 21, 2014, Dr. Murray wanted to see
his regular psychologist, Dr. Gary A. Grove, but Dr.
Grove did not have any openings, so Dr. Murray saw
Dr. Robert Bright for an urgent appointment. (Doc.
203-1 at 144.) Over the weekend of February 22 and
23, Dr. Murray left a message on the voicemail for
the Center of Sleep Medicine informing MCA that he
would be taking a six-week medical leave. (Doc. 2051 at 46.) On February 24, 2104, Dr. Murray saw Dr.
Grove. (Doc. 205-3 at 13.) The next day, Dr. Murray
went to Banner Health. (Id.) Banner Health wanted
to admit Dr. Murray, but there were no beds available.
(Id.) Dr. Murray, however, was able to attend their
intense outpatient dialectic behavioral therapy for
six weeks. (Id.) Dr. Murray was medically cleared to
return to work on April 10, 2014 (Doc. 203-1 at 75),
but he remained on administrative leave (Doc. 203-1
at 76).
On April 16, 2014, Drs. Krahn and Trentman met
with Dr. Murray. (Doc. 203-1 at 68-69.) Defendants
state the primary purpose of the meeting was to give
Dr. Murray another opportunity to describe what happened on February 19. (Docs. 199 ¶ 33; 210 ¶ 33.) Dr.
Murray’s description of the events will be discussed
in detail below. Dr. Murray brought up the prospect
of “chronic, severe PTSD” (Docs. 203-1 at 79; 205-3 at
215), but he did not state that he had PTSD (Doc.
203 at 19).3 He stated that the episode of tampering
3 It is unclear whether Dr. Murray was ever diagnosed with
PTSD, although he was diagnosed with mental health disorders.
The Court need not identify his mental health diagnoses in
order to resolve this case. For the limited purposes of this Order,

App.31a
with his anesthesia machine and invading his space
triggered his PTSD, which was inactive prior to this
incident. (Doc. 203-1 at 79.) In response, Dr. Krahn
asked additional questions because Dr. Murray had
emailed Dr. Trentman that he had been cleared by
military physicians, had no active diagnosis, and was
not on any medication. (Docs. 203-1 at 79; 205-3 at 215.)
Dr. Murray affirmed that, at the time, the statements
were true. (Doc. 203-1 at 79.) He knew that things were
not completely okay, but was having a hard time
getting into medical care at the VA. (Doc. 203-1 at 80.)
Dr. Krahn stated that he would not be able to return to
work at the time and would probably need an independent medical evaluation before he returned. (Doc.
203-1 at 80-81.) Dr. Trentman advised Dr. Murray that
he had violated Mayo’s policies on mutual respect,
disruptive behavior, and workplace violence. (Doc.
203-1 at 69.) Dr. Murray acknowledged he was aware
of the policies. (Doc. 203-1 at 79.)
On April 24, 2014, Drs. Krahn and Trentman
again met with Dr. Murray. (Doc. 203-1 at 69.) The
purpose of the meeting was to discuss whether there
had been a violation of Mayo Clinic policies and what
the consequences should be. (Doc. 205-3 at 219.) They
provided Dr. Murray with a severance agreement in
exchange for his resignation. (Doc. 203 at 160-65.) No
final decision had been made to terminate Dr. Murray,
but they informed him that they believed they would
recommend termination to the Executive Operations
Team (“EOT”). (Doc. 205-3 at 68.)

the Court will assume that Plaintiff’s mental health diagnoses
were service related.

App.32a
On May 7, 2014, Dr. Krahn emailed Dr. Murray
to inform him that, if the Committee endorses the recommendation for termination, his last day of employment would be May 16, 2014. (Doc. 205-1 at 13.) On
May 9, 2014, Dr. Murray’s counsel penned a letter to
MCA’s counsel notifying her of USERRA’s provision.
(Doc. 214-5 at 40-45.)
On May 14, 2014, Dr. Krahn recommended involuntary termination to the EOT. (Doc. 203-1 at 85.)
The recommendation was supported by Dr. Trentman,
the Personnel Committee, and an ad hoc committee
comprised of two members of the EOT, Drs. Stone
and Richard Zimmerman. (Doc. 203-1 at 69.) The EOT
voted unanimously to terminate Plaintiff’s employment.
(Doc. 203-1 at 85.) On May 19, 2014, MCA sent Dr.
Murray a termination packet. (Doc. 205-1 at 18-42.)
The termination letter stated that Dr. Murray’s actions
violated the Mayo Mutual Respect policy, Workplace
Violence policy, Unacceptable Conduct and Disruptive
Behavior policy, and Commitment to Safety standards. (Doc. 205-1 at 22.) The key personnel involved
in deciding whether to terminate Plaintiff, and the
only ones who possessed the authority to do so, were:
Dr. Krahn, Dr. Trentman, Dr. Decker, Dr. Andrews,
Dr. Blair, Dr. Fonseca, Dr. Heilman, Dr. Leighton,
Dr. Mayer, Dr. Stewart, Dr. Stone, Teresa Connolly,
Jeff Froisland, and Paula Menkosky. (205-3 at 239-240.)
Of those decision makers, four are Defendants in this
action: Drs. Krahn, Trentman, Decker, and Stone.
On June 13, 2014, Plaintiff filed this action alleging he was terminated in violation of USERRA. (Doc.
1.) On August 18, 2014, Dr. Murray filed an EEOC
complaint. (Doc. 203-1 at 23.) Plaintiff then filed his
FAC to add the FMLA and ADA charges. (Doc. 14.)

App.33a
Dr. Murray now moves for summary judgment on
Count I. (Doc. 198.) Defendants move for summary
judgment on Counts I and II, to dismiss Mayo Clinic
and Ms. Didehban because they are not Plaintiff’s
employers, and to determine if Dr. Murray is entitled
to liquidated damages. (Doc. 194.) In addition, Defendants move to exclude the expert testimony of Dr.
Jeffrey Vender. (Doc. 193.) The motions are fully briefed
and ready for decision.
II.

Legal Standard
A. Summary Judgment

A court must grant summary judgment if the
pleadings and supporting documents, viewed in the
light most favorable to the non-moving party, “show[ ]
that there is no genuine dispute as to any material
fact and the movant is entitled to judgment as a
matter of law.” Fed. R. Civ. P. 56(a); see also Celotex
Corp. v. Catrett, 477 U.S. 317, 322-23 (1986). A fact
is “material” when, under the governing substantive
law, it could affect the outcome of the case. Anderson
v. Liberty Lobby, Inc., 477 U.S. 242, 248 (1986). A
genuine dispute of material fact arises if “the evidence
is such that a reasonable jury could return a verdict
for the nonmoving party.” Id.
The party seeking summary judgment bears the
initial burden of informing the court of the basis for
its motion and identifying those portions of the
pleadings, depositions, answers to interrogatories,
and admissions on file, and affidavits, which it believes
demonstrate the absence of any genuine issue of
material fact. Celotex, 477 U.S. at 323. The burden
then shifts to the party opposing summary judgment,
who “must make a showing sufficient to establish a

App.34a
genuine dispute of material fact regarding the existence
of the essential elements of his case that he must
prove at trial.” Gorman v. Wolpoff & Abramson, LLP,
584 F.3d 1147, 1153 (9th Cir. 2009) (citation omitted).
B. USERRA
Section 4311(a) provides that “[a] person who is
a member of, applies to be a member of, performs,
has performed, applies to perform, or has an obligation
to perform service in a uniformed service shall not be
denied initial employment, reemployment, retention in
employment, promotion, or any benefit of employment
by an employer on the basis of that membership,
application for membership, performance of service,
application for service, or obligation.” In short, a service
member should not be denied retention in employment
because of his military service. USERRA prevents
such action if the employee’s military obligations
were “a motivating factor in the employer’s action,
unless the employer can prove that the action would
have been taken in the absence of such [service.]” 38
U.S.C. § 4311(c)(1). “Under USERRA, discriminatory
motivation of the employer ‘may be reasonably inferred
from a variety of factors, including proximity in time
between the employee’s military activity and the
adverse employment action, inconsistencies between
proffered reason and other actions of the employer,
an employer’s expressed hostility towards members
protected by the statute together with knowledge of
the employee’s military activity, and disparate treatment of certain employees with similar work records
or offenses.’” Leisek v. Brightwood, 278 F.3d 895, 900
(9th Cir. 2002) (quoting Sheehan v. Dep’t of the Navy,
240 F.3d 1009, 1012 (Fed. Cir. 2001)). The plaintiff
bears the burden of proving that his military obliga-

App.35a
tions were one of the reasons that the employer took
action against him. 20 C.F.R. § 1002.22.
Section 4316(c) of USERRA prohibits the termination of an employee within one year of the date of
reemployment, except for cause. The employer bears
the burden of showing cause. To show cause, the
employer must prove that it was reasonable to discharge the employee for the conduct in question, and
that the employee had notice that such conduct would
constitute cause for discharge. 20 C.F.R. § 1002.248
(a).
III. USERRA Claims
A. Count I–42 U.S.C. § 4311
Defendants allege that they terminated Dr.
Murray because of the events of February 19, 2014.
(Doc. 205-1 at 18.) Plaintiff alleges Dr. Murray’s
military service was a motivating factor in Defendants’
termination decision. Plaintiff argues that a discriminatory motive can be proven through circumstantial
evidence. (Doc. 198 at 9.)
1. The Incident
No one disputes that something happened in the
OR on February 19, 2014. However, Plaintiff and
Defendants vigorously dispute what happened during
those few short minutes. There were eight people in
the OR at the time of the Incident: Dr. Murray; Dr.
Chien, an anesthesiologist; Gina Taddea, RN; Jennifer
Warner, CRNA; surgical tech Eric Bowers; prelim
surgery resident Ryan Day; medical student Josh
Groger; and RN student Mertai Gatani. MCA did not
pursue interviews with the students, and Mr. Day’s

App.36a
back was to the event. He heard loud voices, but did
not see any physical contact. (Doc. 205-2 at 24.) That
leaves five accounts of what happened, including Dr.
Murray’s version.
Dr. Murray now says that while he was entering
data into a computer,
Dr. Chien squeezed into the small space
between the patient and Dr. Murray and
attempted to manipulate the anesthesia
monitoring equipment. Startled, Dr. Murray
asked Dr. Chien to stop and when Dr. Chien
did not comply, in order to protect the patient,
Dr. Murray moved Dr. Chien away from the
anesthesia machine and directed Dr. Chien
to leave the room. After being told to leave
three times (eventually in a very loud
voice), Dr. Chien finally turned and left the
room—without saying a word. About 30
minutes later Dr. Chien apologized to Dr.
Murray without ever explaining his behavior.
(Doc. 198 at 6.)
Over time, Dr. Murray has described the Incident
in a variety of ways. The Court finds Dr. Murray’s
statements to Dr. Bright two days after the Incident
to be the most compelling. Dr. Bright testified at his
deposition that:
[Dr. Murray] had contacted our office and
had requested to be seen on a fairly urgent
basis. He had learned that he had been
placed on administrative leave from his work.
He had had an episode, I think it was in the
operating room, where he had become angry.
He was worried that he could be terminated

App.37a
from his job for this. I guess someone else in
the OR had been terminated recently for
something along the same lines.
(Doc. 203-1 at 141.)4 Dr. Bright’s notes recount a similar version. Dr. Murray told him that “he became upset
that this other anesthesiologist was making adjustments to a BP machine that Dr. Murray had just
finished setting. He recalls having feelings of ‘rage’
and being verbally aggressive (but not threatening)
to this other physician.” (Id.) Dr. Murray further
informed Dr. Bright that “there is a ‘zero tolerance
policy’ for physical contact. He fears/anticipates that
he will be terminated from his position, as apparently
a similar incident occurred within the last few years
involving a nurse anesthetist who was fired.” (Doc. 2031 at 144.) This version of events matches the witnesses’
statements, but is in stark contrast to the version Dr.
Murray now gives.
The day after the Incident, Dr. Murray downplayed
the Incident stating that he had no need to apologize
for his actions. (Doc. 205-1 at 21.)
During the April 16, 2014 meeting, “Dr. Murray
stated that Dr. Chien ‘tampered’ with the anesthesia
machine and that he ‘batted’ Dr. [Chien’s] arm down
when Dr. Murray tried to prevent Dr. Chien from
touching the machine. Dr. Murray was very critical
4 This contradicts Dr. Murray’s allegation that “[a]fter sitting for
a few days on administrative leave without any information
regarding Mayo’s intentions, Dr. Murray began to struggle with
some of the symptoms that he previously experienced from his
PTSD and other military-service-related conditions.” (Doc. 198
at 6.) In fact, he saw a psychiatrist on an urgent basis the day
after he was placed on administrative leave.

App.38a
of Dr. Chien touching the anesthesia equipment. Dr.
Murray himself described that he pulled Dr. Chien
by the shoulders and pushed him into an IV pole. In
that interview Dr. Murray described his actions as
‘inappropriate’ but repeated that Dr. Chien’s actions
were inappropriate too.” (Doc. 205-1 at 22.)
In his deposition, Dr. Murray stated that “[he]
stepped a little bit grabbed him by the shoulders,
pulled him, pushed him out of the way, and yelled at
him not to touch that machine.” (Doc. 205-3 at 16.)
He further admits yelling, and then screaming at Dr.
Chien. (Doc. 205-3 at 18.) He states that he was not
angry; he was afraid for his patient. (Doc. 205-3 at 18.)
In comparison, here is how the witnesses describe
the Incident. Ms. Warner, Ms. Taddeo, and Mr. Bowers
thought Dr. Chien was waiting to either consult with
Dr. Murray or take over for Dr. Murray. (Doc. 205-2
at 28-30.) When Dr. Chien reached over to turn off
the blood pressure timer, Ms. Taddeo viewed his actions
as trying to assist Dr. Murray. (Doc. 205-2 at 28.)
When Dr. Murray told Dr. Chien to take his hands off
his anesthesia machine, Ms. Taddeo and Ms. Warner
described the tone as “yelling” and “stated firmly,”
respectively. (Doc. 205-2 at 28-29.) Mr. Bowers looked
over at Dr. Murray right after the statement and
noticed he was “red in the face, seemed angry.” (Doc.
205-2 at 30.) Dr. Murray’s tone was so serious that
everyone in the room thought Dr. Murray was joking.
(Doc. 205-2 at 25, 28, 30.) As for the physical interaction, Ms. Taddeo describes it as Dr. Murray “shoving
Dr. Chien, who was pushed into an IV pole.” (Doc. 2052 at 28.) Mr. Bowers stated that Dr. Murray “pushed
[Dr. Chien] into the IV pole.” (Doc. 205-2 at 30.) Mr.
Bowers further described it as “[n]ot a straight push

App.39a
arm, but there was contact from Dr. Murray, wasn’t
a two handed push . . . more of a bump from Dr. Murray
to Dr. Chien to cause him to go into the pole.” (Id.)
Ms. Warren did not see the commotion because her
back was to Drs. Murray and Chien, but she heard
the commotion and saw the IV pole pushed aside.
(Doc. 205-2 at 29.) Ms. Taddeo stated that Dr. Murray
continued screaming at Dr. Chien repeatedly saying
“I’m serious! Get out of my room!” (Doc. 205-2 at 28.)
Ms. Taddeo also states that Dr. Murray shoved Dr.
Chien at least one more time. (Id.)
Even more telling is the reaction of the other
employees after the Incident was over. Ms. Taddeo
stated that “[w]e were all shaken up by this, and
frightened by Dr. Murray’s actions.” (Id.) Furthermore,
Ms. Warner, after stabilizing her patient, called her
team lead to inform her of the situation. (Doc. 205-2
at 29.) When Dr. Murray encountered Ms. Warner an
hour later, she responded that she was not involved
in what goes on between two consultants. (Doc. 203-1
at 79.) These are not the reactions of employees who
saw Mr. Murray merely “direct[ ] Dr. Chien to leave
the room.” (Doc. 198 at 6.)
MCA had cause to terminate Dr. Murray, but
that is not the end of the analysis. USERRA provides
that if the employee’s military obligations were “a
motivating factor” in the termination, Defendants
could still be held liable.
2. Discriminatory Motive
A discriminatory motive may be inferred by factors
such as ‘“proximity in time between the employee’s
military activity and the adverse employment action,
inconsistencies between proffered reason and other

App.40a
actions of the employer, an employer’s expressed
hostility towards members protected by the statute
together with knowledge of the employee’s military
activity, and disparate treatment of certain employees
with similar work records or offenses.’” Leisek, 278
F.3d at 900.
a. Proximity in Time
Plaintiff asserts that the “temporal proximity
between certain key events . . . establishes that Dr.
Murray’s military service and obligations were a
motivating factor in Defendants’ decision.” (Doc. 213
at 10.) Plaintiff defines these key events as the “close
proximity between Defendants’ private emails about
Dr. Murray’s military deployment and the decision to
terminate him, coupled with the proximity between
his return from military leave and the investigation,
establish that his military service was a motivating
factor in Defendants’ decision to terminate him.” (Id.)
Defendants, on the other hand, argue that seven
months between Plaintiff’s discharge from the military
and his termination is too distant to imply any
negative inference. (Doc. 194 at 12.)
Dr. Murray makes much of the emails exchanged
between Defendants during his military deployment
in 2012 and 2013, especially the emails from July
and August 2012. (Docs. 205 at 1-25; 205-2 at 10, 17-22;
205-3 at 1-3.) The emails express employees’ frustration
with trying to schedule anesthesiologists during Dr.
Murray’s deployment and frustration with Dr. Murray’s constantly changing dates of return. (Id.; Doc.
205-3 at 38-39.)
In July 2012, Dr. Ramakrishna stated that “[t]he
winter will be ugly if mike doesn’t show up as per

App.41a
schedule.” (Doc. 205 at 5.) Later that month, when
discussing that Dr. Murray might not return for
another year, Dr. Cole wrote that “[i]f true, this is
not sustainable. We’ll have to discuss. How long can
Dr. Murray be gone on leave from the military and
we still have to hold a spot open for him, both from a
legal and Mayo policy point of view?” (Doc. 205 at 7.)
Dr. Trentman wrote that “[i]t can be a challenge
figuring out what Dr. Murray is doing.” (Doc. 205 at
9.) Ms. Didehban wrote that “[she would] find out
from HR what the precedence/process is for replacing
physicians on extended military deployments.” (Doc.
205 at 11.) After research, Ms. Didehban’s responded
that “[t]he bottom line is that we can’t ‘replace’ him
as long as he is anticipated to return; any growth to
our staff would be additional positions.” (Doc. 205-3
at 2.) Dr. Trentman emailed Dr. Cole stating that
“Mike M remains the international man of mystery.”
(Doc. 205 at 13.) In April 2013, email traffic picked
up again when Dr. Murray’s orders were extended
until October 22, 2013. (Doc. 205 at 23.) Ms. Didehban
wrote that “[she thought] we should also speak with
Jennifer Boudreau to see if there is any end date or
option to proceed with replacing an employee on
military duty after a certain number of months . . . i.e.
at what point do they lose their position?” (Id.) Dr.
Murray argues these emails, coupled with his return
from military leave and the investigation, “establish
that his military service was a motivating factor in
Defendants’ decision to terminate him.” (Doc. 213 at
10.)
What Dr. Murray fails to explain is how the
emails, largely from 2012, apply after Dr. Murray

App.42a
returned from deployment.5 Each email was written
because of either staffing shortages or Dr. Murray’s
changing dates of return. Once Dr. Murray returned
from deployment, staffing of the anesthesiologists
was no longer an issue and only a few emails even
mention his military service. For example, on March
13, 2014, Dr. Krahn and Ms. Heinrich exchanged
emails and Dr. Krahn stated “I predict that you will
have to be assertive to get any documentation based
on his past patterns for military absences . . . I suggest
setting a RTW deadline to apply more pressure.
Thanks.” (Doc. 205-1 at 48.) This email had less to do
with military service than it did with Dr. Murray’s
pattern and practice of procrastination in providing
the necessary documents. Dr. Krahn’s comment was
apt given that Dr. Murray went on medical leave no
later than February 24, 2013 and Occupational Health
had still not received any paperwork by March 13,
2014. Plaintiff has not produced a single email that
discussed termination of Dr. Murray prior to the
Incident.6 Additionally, the emails are remote in
time. Plaintiff does not explain how emails regarding
scheduling, authored primarily by co-workers in 2012,
bear any relationship to his termination in 2014 for a
serious workplace incident.
In an attempt to tie his military service to his
termination, he cites to an email chain from April 23,
2014 discussing the dates of his deployments and
5 Many of these emails were not written by the key decision
makers in Plaintiff’s termination.
6 Emails may have discussed MCA’s responsibilities and options,
but no one actually recommended termination. Plaintiff conflates
asking questions with taking action.

App.43a
how much MCA augmented his military salary. (Doc.
205-2 at 13.) This was the day before Drs. Krahn and
Trentman met with Dr. Murray and provided him
with a settlement agreement if he chose to resign.
Defendants explain that they needed the information
in order to design a resignation package (Doc. 205-3
at 142), but Dr. Murray emphatically argues that it
“constitutes direct evidence of Defendants’ anti-military
animus.” (Doc. 221 at 5.) The Court disagrees. MCA’s
policy requires a staff member to serve three years
after release from active duty. If the staff member
stays less than three years, they agree to reimburse
MCA for the amount of the augmented salary on a
pro rata basis. (Doc. 210-1 at 31.) In Dr. Murray’s case,
MCA chose not to seek reimbursement. (Id.) A resignation package with remuneration could not have
been made without the facts in front of them. The
April 23, 2014 email chain does not link Plaintiff’s
military service to his termination.
The undisputed facts show that Plaintiff returned
from military duty and had no negative treatment for
three months. Yet, within 24 hours of the Incident,
MCA placed Plaintiff on administrative leave, and,
approximately 12 weeks later (including a six-week
medical leave), he was terminated. On the other
hand, the emails are remote in time and the subject
matter of the emails became moot upon Dr. Murray’s
return from military service. Temporal proximity
favors Defendants and does not justify an inference
of discrimination.
b. Inconsistent Reasons
Plaintiff alleges that “Defendants originally discussed terminating Dr. Murray while he was deployed

App.44a
with the Army, specifically because of the length of his
military deployment.” (Doc. 213 at 11.) Plaintiff further
alleges that “Defendants now claim that they terminated Dr. Murray based entirely on the February 19,
2014 incident.” (Id.) Plaintiff states that Defendants’
actions do not support the claim. (Id.) Plaintiff identifies the following inconsistencies: skipping all levels
of intermediate levels of discipline but not reporting
Plaintiff to the Arizona Medical Board; Defendants
shifted the focus of the misconduct investigation from
the Incident to Dr. Murray’s service-connected PTSD;
and Dr. Krahn’s requirement that Plaintiff receive an
additional medical evaluation despite established policy
that she would have no more involvement in the medical aspects of Dr. Murray’s case. (Doc. 213 at 11-12.)
First, Dr. Murray alleges that they imposed the
harshest sanction possible and did not consider lesser
sanctions. (Doc. 213 at 11.) However, this is consistent
with MCA’s behavior in 2011 when a CRNA was
fired for grabbing another employee. (Doc. 203-1 at 3,
25-26.) The employee was terminated despite the fact
that he had no prior disciplinary history. (Id.) Furthermore, the employee was not in the military. (Id.)
Plaintiff finds Dr. Murray’s termination inconsistent
with MCA not reporting Plaintiff to the Arizona Medical Board, but Plaintiff is comparing apples and
oranges. The Arizona Medical Board has rules and
definitions, just as MCA has policies. “Unprofessional
conduct,” as it relates to the Arizona Medical Board,
is defined by 32 A.R.S. § 1401. Behavior that violated
MCA’s policies does not necessarily mean that the
behavior violated the Arizona Medical Board’s requirements for reporting.

App.45a
Second, Dr. Murray alleges that Defendants shifted
the focus of the misconduct investigation from the
Incident to Dr. Murray’s service-connected PTSD. (Doc.
198 at 14.) However, this is a conclusory allegation
that is not supported by the record. His sole basis for
the “shift of focus” allegation is questions Drs. Krahn
and Trentman asked Dr. Murray about angry outbursts
and concentration difficulties. (Doc. 203-1 at 78-81.)
They asked him if he had had previous angry outbursts
or struggled with concentration difficulties. (Doc. 2053 at 59-62.) Given Dr. Murray’s behavior on the day
of the Incident, these were valid questions. Additionally, Plaintiff brought up the subject of PTSD. (Doc.
205-3 at 65.) Dr. Krahn avows that she was not aware
of any diagnoses that prompted Dr. Murray’s medical
leave. (Doc. 203-1 at 69.) The record also does not
support an inference that Defendants were no longer
focused on the Incident and were only concerned with
his alleged PTSD symptoms.7
7 Plaintiff cites to Montoya v. Orange County Sheriff’s Dep’t, 2014
WL 6389433 (C.D. Cal. Nov. 13, 2014) for support. In Montoya,
the employer conducted a “Threat Assessment” based on the
plaintiff’s military training, installed a camera outside his
residence, and placed a GPS tracker on his car because they
feared he would react violently to termination because of his
PTSD. Id., at *3. Plaintiff alleges that “Defendants engaged in
the same conduct as the employer in Montoya. (Doc. 198 at 17.)
Plaintiff is wrong. Montoya described a long pattern of abuse
from the employer, none of which has been alleged here. Plaintiff tries to save his reliance on Montoya by stating that “the
employer took certain actions against the employee out of fear
of the possible symptoms of his service-connected PTSD.” (Doc.
221 at 7.) However, Montoya does not stand for the proposition,
that as long as the employee has a service-related disability, the
employer cannot terminate the employee no matter how violent
the behavior. Here, Plaintiff was angry and physically aggressive—

App.46a
Lastly, Plaintiff argues that Dr. Krahn should
not have required any further testing before Plaintiff
returned to work. However, between Dr. Murray’s
physically aggressive behavior on February 19, and
his raising the issue of PTSD, it understandably
caused concern about patient care. (Doc. 203-1 at 70.)
Plaintiff’s argument that this is proof of military
animus strains credulity.
To the extent Plaintiff finds Defendants’ behavior
inconsistent, the Court is not persuaded. None of the
“inconsistencies” alleged by Dr. Murray are inconsistencies between Defendants’ stated reasons and their
actions. MCA’s reasons for discharging Plaintiff were
consistent. The Incident occurred on February 19, and
Plaintiff was placed on administrative leave within
24 hours. He met with Drs. Krahn and Trentman on
April 16 and April 24, 2014. In every meeting and
conversation he was told that he had violated hospital
policies—the very same policies he was terminated
for violating.
c. Expressed Hostility
The next factor is whether Defendants expressed
hostility towards service members with the knowledge
of the particular employee’s military service. Plaintiff
a violation of Mayo Clinic’s policies whether caused by PTSD or
some other diagnoses. He cannot now claim that his behavior is
the result of service-related PTSD and somehow gain immunity
from Mayo Clinic’s policies. Furthermore, he cannot disclose a
possibly serious case of PTSD and expect his employer to not ask
any questions about it. Mayo Clinic does not tolerate violent
behavior and Montoya does not hold to the contrary. Montoya is
not factually similar and provides no legal analysis relevant to
the case at bar.

App.47a
argues that the “record is saturated with examples of
Defendants’ hostility toward Dr. Murray’s military
obligations and a desire to terminate him specifically
because of his military obligations.” (Doc. 213 at 9.)
Plaintiff relies on Defendants’ emails to support this
claim. Plaintiff further alleges that “Defendants cannot
sufficiently decouple their hostility toward Dr. Murray’s
extended military deployment from their decision to
terminate him.” (Doc. 213 at 13.)
As detailed above, the record supports some MCA
employees’ frustration with the repeated extensions
of Plaintiff’s deployment and the resulting staffing
issues it caused. Frustration, however, is not the same
as expressed hostility. For example, Dr. Trentman’s
email that stated: “Mike M remains the international
man of mystery” does not inherently express any
hostility. (Doc. 205 at 13.) It reflects the unknown—
that MCA has no idea when Plaintiff would return
from military leave. Plaintiff assumes that if the
military is mentioned, hostility must be automatically
implied. Such is not the case. The second half of
Plaintiff’s statement is more puzzling—that the “record
is saturated with examples of Defendants’ . . . desire
to terminate him specifically because of his military
obligations.” (Doc. 198 at 10.) Again, Plaintiff points
to the emails exchanged while he was deployed and
already quoted above. At no point did any of those
emails state that anyone at MCA wanted to terminate
Dr. Murray. The emails prove that MCA looked into
its obligations to Dr. Murray, and whether they could
temporarily fill his position in other ways, but to
characterize them as a “desire to terminate him” is
unsubstantiated by the record. In fact, Plaintiff was

App.48a
previously deployed while working for MCA and suffered no negative treatment.
Plaintiff next argues that if the Defendants’ behavior does not show hostility, it definitely shows antimilitary animus, which is enough to violate USERRA.
Plaintiff cites to Croft v. Village of Newark, 35 F.Supp.
3d 359, 372 (W.D.N.Y. 2014), which states that antimilitary animus can “simply mean that the employer
thought the plaintiff’s military status negatively
impacted his or her appropriateness for certain positions.” Id. However, as noted earlier, Defendants took
no adverse actions while Plaintiff was in the military.
Defendants did not find Plaintiff inappropriate for
certain positions because of his military service.
Plaintiff does not allege that he was denied promotions, or suffered in any way from the date of his
return to the date of the Incident. To the extent
Plaintiff identifies hostility or animus, the reason for
the hostility or animus disappeared upon Plaintiff’s
return to work.
Next, Plaintiff alleges that Defendants cannot
“decouple the antimilitary animus . . . from their decision to terminate him.” (Doc. 198 at 16.) He cites to
Reed v. Honeywell Int’l, Inc., CV-07-00396-PHXMHM, 2009 WL 886844, at *6 (D. Ariz. Apr. 27, 2009),
for the proposition that “[t]he issue under USERRA
is not whether an employer is ‘entitled’ to dismiss an
employee for a particular reason, but whether it
would have done so if the employee were not in the
military.” Id. However, the record before the Court
supports that MCA would have terminated Dr. Murray
regardless of his service. (Doc. 203-1 at 69-70.) Dr.
Trentman, himself a veteran, testified at his deposition that Plaintiff’s military service was viewed

App.49a
favorably. (Doc. 210-1 at 65.) MCA previously fired a
CRNA for similar behavior. (Doc. 203-1 at 3.) Because
of the prior firing for physical violence, Plaintiff
knew that he was likely to be terminated as he told
Dr. Bright one day after being placed on administrative leave. (Doc. 203-1 at 141.)
Plaintiff has failed to show that Drs. Trentman
or Krahn, or any member of the Executive Operations
Team expressed hostility because of Dr. Murray’s
military service. Defendants did not terminate him
while he was on deployment and welcomed him back
after his deployment. Defendants’ earlier emails simply
do not show that they wanted to terminate him at
the earliest opportunity. To the extent that the
emails show any negativity, it does not rise to the
level of expressed hostility or antimilitary animus.
d. Disparate Treatment
The last factor is whether there was disparate
treatment of certain employees with similar work
records or offenses. In 2011, MCA terminated another
employee for a one-time encounter with a co-worker,
in which the employee shoved the co-worker. (Doc.
203-1 at 3, 25-26.) Like Plaintiff, the employee was
given the harshest sanction—termination. (Id.) Like
Plaintiff, his employment history was otherwise unremarkable. (Id.) But this other employee never served
in the military. (Id.) Since 2011, 11 MCA physicians
have violated Mayo Clinic’s policies of Mutual Respect
or Unacceptable Conduct and Behavior and have been
disciplined. (Doc. 203-1 at 52-53.) Out of those 11,
five physicians either voluntarily resigned or were
terminated. (Id.) MCA has an established record of
disciplining employees, including physicians, for infrac-

App.50a
tions of the workplace violence, disruptive behavior,
and mutual respect policies. None of the other disciplined physicians served in the military. (Doc. 2031 at 70.) Plaintiff does not address disparate treatment in his response. (Doc. 213.)
Plaintiff has failed to show that his military service
was a motivating factor in his termination. The facts
support that the action would have been taken in the
absence of Plaintiff’s military service. As such, Count
I will be dismissed.
B. Count II–42 U.S.C. § 4316(c)
Section 4316(c) of USERRA prohibits the termination of an employee within one year of the date of
reemployment, except for cause. Plaintiff argues that
“[b]ecause employers have the burden of proving that
the discharge was reasonable, it is difficult for employers to achieve summary judgment on claims under
§ 4316(c).” (Doc. 213 at 14 citing Reed, 2009 WL
886844, at *8.) Plaintiff further alleges that “Defendants did not terminate him after the OR incident.
Instead they waited until immediately after learning
of the symptoms of his service-connected PTSD before
deciding to terminate.” (Doc. 213 at 15.) Plaintiff urges
the Court to permit the jury to decide whether Plaintiff’s termination was reasonable under the circumstances. (Doc. 213 at 15.)
As discussed extensively above, the evidence
supports that Defendants had cause to terminate Dr.
Murray, and that he had notice that such conduct
would constitute cause for discharge. In addition, the
delay in the decision to terminate Plaintiff was because
he was on medical leave for six weeks. Defendants
should not and did not make the determination until

App.51a
Plaintiff returned from medical leave. No reasonable
jury could find that Defendants lacked cause to fire
Plaintiff. As such, Count II will be dismissed.
IV. Mayo Clinic’s Liability as Employers
As Counts I and II will be dismissed, no charges
remain against Ms. Didehbon and the Court need not
reach her liability as an employer. Additionally, the
Court need not reach Mayo Clinic’s liability as an
employer on the USERRA claims, but must still
address its liability for the FMLA and ADA claims.
A. FMLA
It is undisputed that Dr. Murray was employed
by MCA at the time of the events at issue; however,
Plaintiff asserts that Mayo Clinic is also his employer.
(Doc. 134 at 2.) Defendants argue that Mayo Clinic is
not an employer under the FMLA. (Doc. 194 at 15.)
Plaintiff alleges that:
Mayo Clinic is deeply involved in operations,
labor relations, and financial control of all
three of its campuses, including Mayo ClinicArizona. Mayo Clinic reserves to itself: (1)
responsibility for Mayo-Clinic-Arizona’s compensation and benefit policies; (2) final
approval authority for all new appointments
to the staff at Mayo Clinic-Arizona; and (3)
oversight of any transfer of assets other
than in the ordinary course of business.
Additionally, Mayo Clinic’s Code of Conduct
expressly applies to “Employees at all Mayo
sites.” Plaintiff’s W-2s came from Mayo
Clinic, not Mayo Clinic-Arizona, and Mayo

App.52a
Clinic files a nonprofit tax return that consolidates all three of Mayo Clinic’s campuses
into one tax filing.
(Doc. 213 at 17.)
The test for whether two entities should be
treated as one, for purposes of employment claims, is
“if they have (1) interrelated operations, (2) common
management, (3) centralized control of labor relations,
and (4) common ownership or financial control.”
Morgan v. Safeway Stores, Inc., 884 F.2d 1211, 1213
(9th Cir. 1989). However, courts generally recognize
that corporate personalities are distinct. See United
States v. Bestfoods, 524 U.S. 51, 69 (1998). “Appropriate
parental involvement includes: monitoring of the
subsidiary’s performance, supervision of the subsidiary’s
finance and capital budget decisions, and articulation
of general policies and procedures.” Doe v. Unocal
Corp., 248 F.3d 915, 926 (9th Cir. 2001) (citation and
internal quotation marks omitted).8 The corporate
veil may be pierced if the parent or subsidiary is
merely an agent of the other. Id. This type of “relationship is typified by parental control of the subsidiary’s
internal affairs or daily operations.” Id.
1. Interrelated Operations
Dr. Murray alleges that Mayo Clinic determines
MCA’s “compensation and benefit policies” and issues
the Code of Conduct applicable to all of Mayo’s
employees. (Doc. 213 at 17.) While there may be a
8 The Ninth Circuit is analyzing the parent-subsidiary relationship
in light of jurisdiction over the parent corporation. Nevertheless,
the framework is relevant to the proper levels of involvement
between a parent and a subsidiary.

App.53a
few interrelated operations between Mayo Clinic and
MCA, it mostly consists of the typical parent-subsidiary
relationship. The “articulation of policies and procedures,” such as those identified by Dr. Murray, is
“appropriate parental involvement.” Doe, 248 F.3d at
926. This is not the type of “relationship [that] is
typified by parental control of the subsidiary’s internal
affairs or daily operations.” Id.
2. Common Management
Dr. Murray identifies two people, Drs. Krahn and
Decker, who served in a leadership capacity for both
Mayo Clinic and MCA. (Doc. 213 at 17.) Dr. Decker is
the CEO of MCA and is the Vice President for Mayo
Clinic. Similarly, Dr. Krahn was the Chair of the Personnel Committee of MCA at the time of Dr. Murray’s
termination and is on the EOT of MCA. (Doc. 203-1 at
68.) She is also on the Board of Trustees and Board of
Governors for Mayo Clinic. (Doc. 203-1 at 68.) Directors
of a parent corporation may appropriately serve as
directors of the subsidiary and “that fact alone may
not serve to expose the parent corporation to liability
for its subsidiary’s acts.” United States v. Bestfoods,
524 U.S. 51, 69 (1998) (citation and internal quotation
marks omitted). Here, the Boards and Committees for
Mayo Clinic and MCA were not carbon copies of each
other. Only two people out of dozens were involved in
leadership at both Mayo Clinic and MCA. (Doc. 217
at 9.) This is simply not enough to show that Mayo
Clinic and MCA shared common management.
3. Centralized Control of Labor Relations
Mayo Clinic must approve all new hires at MCA.
However, once an employee is hired, Mayo Clinic is not

App.54a
involved in the supervision, advancement opportunities,
discipline, or firing of the employee. MCA has its own
human resources department. This is not “deeply
involved” in labor relations as Plaintiff alleges. Plaintiff
also points to Dr. Decker’s email to Dr. John Noseworthy, CEO and President of Mayo Clinic, alerting
them to the incident in the OR at MCA. (Doc. 214-5
at 26.) Dr. Decker’s email specifically states that the
information was “a heads up.” (Id.) It was not required
reporting; it was not a formal report. The email proves
that MCA did not need the permission of Mayo
Clinic’s Board to place Dr. Murray on administrative
leave; MCA had already done so. The email served as
a vehicle for passing along information regarding
a serious workplace incident. This does not prove
centralized control of labor relations.
4. Common Ownership or Financial Control
Mayo Clinic must approve the transfer of assets
other than in the ordinary course of business. (Doc. 213
at 17.) However, such a task is appropriate parental
involvement. Doe, 248 F.3d at 926 (“Appropriate parental involvement includes . . . supervision of the subsidiary’s finance and capital budget decisions.”). Plaintiff
also alleges, without providing evidence, that Mayo
Clinic issues his paycheck. However, MCA’s paychecks
are issued by Mayo Foundation for Medical Education and Research, who provides payroll services for
MCA. (Doc. 203-1 at 2.) Further, Plaintiff argues
that the three Mayo entities file a single tax return.
In 2014, Mayo Clinic intended to file a consolidated
tax return, but Plaintiff does not present any updated
information on what happened to the 2014 tax filings.
(Doc. 205-3 at 245.) Plaintiff also does not state how
a consolidated tax return proves common ownership

App.55a
or financial control. Undoubtedly, Mayo Clinic and
MCA have a common link—Mayo Clinic is the parent
and MCA is the subsidiary. What Plaintiff fails to explain is how Mayo Clinic and MCA are so entwined
that one is essentially the agent for the other.
Plaintiff’s argument that Mayo Clinic is Dr. Murray’s employer fails. Mayo Clinic will be dismissed from
Count IV.
B. ADA
Defendants allege that Dr. Murray filed a single
EEOC charge related to this matter. (Doc. 194 at 16.)
The charging document names “Mayo Clinic in Arizona”
as the employer. (Doc. 203-1 at 23.) Essentially,
Defendants argue that Dr. Murray never filed an
EEOC claim against Mayo Clinic and has failed to
exhaust his administrative remedies. 42 U.S.C. § 12117
(a) (incorporating the enforcement procedures from
Title VII). In a footnote, Dr. Murray responds that
Mayo Clinic and MCA are a single entity and that the
right-to-sue letter mentions “Mayo Clinic Hospital.”
(Doc. 213 at 18, n.3.) For support, Dr. Murray submits
a letter he sent to the EEOC where he designated the
topic as “Dr. Michael Murray ADA Discrimination
Charge Against Mayo Clinic & Request for Immediate Right to Sue Letter.” (Doc. 214-5 at 28.) In the
letter, he articulates the parent-subsidiary relationship and then proceeds to lump them together as a
single entity. (Doc. 214-5 at 28.) Notably, Dr. Murray
identified Mayo Clinic and MCA as separate entities
when he filed his complaint in this Court on June 13,
2014. (Doc. 1.) He understood that separate legal
entities have meaning. Dr. Murray’s intent to charge
both entities does not change the fact that, on August

App.56a
18, 2014, he filed a single charge against a single
entity—Mayo Clinic in Arizona. (Doc. 203-1 at 23.)
As such, Mayo Clinic will be dismissed from Count VI.
V.

Liquidated Damages

The Court need not reach the issue of liquidated
damages under USERRA, but Defendants also seek a
ruling on liquidated damages on the FMLA claim.
Liquidated damages are available, but an employer
may defeat a claim through an affirmative defense if
it can show that it acted in good faith and with reasonable grounds. 29 U.S.C. § 2617(a)(1)(A)(iii). Here, the
facts support an inference that Defendants acted in
good faith and terminated Dr. Murray on reasonable
grounds. However, Plaintiff’s FAC is not detailed
enough to know what facts the FMLA claim is based
on or exactly how the FMLA was violated. Therefore,
the Court finds it premature to rule on liquidated
damages.
VI. Motion to Exclude Expert Testimony
Dr. Murray intends to offer the opinions of Jeffrey
Vender, M.D. as expert testimony at trial. Defendants
seek to exclude Dr. Vender’s testimony under Federal
Rule of Evidence 702. (Doc. 193.) Dr. Vender opined
on four areas, all of which Defendants seek to exclude.
(Doc. 193-1 at 2-3.) Dr. Murray, in response, states
that he intends to offer only the first of Dr. Vender’s
opinions at trial:
It is unusual for another anesthesiologist to
enter an operating room during an elective
procedure and unsolicitly [sic] intercede in
the care or management of the supervising

App.57a
anesthesiologist, who is directly present and
responsible for the care of said patient.
(Doc. 207 at 1.) The Court will grant Defendants’
motion as to Dr. Vender’s expert opinion on the other
three areas. However, it is not clear from Plaintiff’s
FAC whether Dr. Vender’s expert testimony is relevant
to the FMLA or ADA claims. As such, the Court will
deny the motion without prejudice as to the opinion
cited above. If necessary, Defendants may refile the
motion limited to the above opinion.
VII. Conclusion
In summary, Defendants’ motion for partial
summary judgment will be granted in part. Defendants’
request for a ruling on liquidated damages will be
denied. Plaintiff’s motion for partial summary judgment will be denied. Defendants’ motion to exclude
expert testimony will be granted in part and denied
in part. The following counts and Defendants remain
and will go to trial: Count IV against MCA and Dr.
Krahn, and Count VI against MCA. Accordingly,
IT IS ORDERED:
1.

That Defendants’ motion for partial summary judgment (Doc. 194) is granted in part.
Defendants’ request for a ruling on liquidated
damages is denied. The remainder of the
motion is granted;

2.

That Plaintiff’s motion for partial summary
judgment (Doc. 198) is denied; and

3.

That Defendants’ motion to exclude expert
testimony (Doc. 193) is granted in part. As
to Dr. Vender’s second, third, and fourth

App.58a
opinions, the motion is granted. As to Dr.
Vender’s first opinion, the motion is denied
without prejudice.
Dated this 31st day of March, 2017.
/s/ Honorable Steven P. Logan
United States District Judge

App.59a
ORDER OF THE UNITED STATES COURT OF
APPEALS FOR THE NINTH CIRCUIT
GRANTING EXTENSION OF TIME
TO FILE PETITION FOR REHEARING
(AUGUST 26, 2019)
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
________________________
MICHAEL J. MURRAY, M.D. – a Married Man,

Plaintiff-Appellant,
v.
MAYO CLINIC, a Minnesota
Nonprofit Corporation; Et Al.,

Defendants-Appellees.
________________________
No. 17-16803
D.C. No. 2:14-cv-01314-SPL
District of Arizona, Phoenix
Before: GOULD and IKUTA, Circuit Judges,
and PEARSON, District Judge.
Appellant’s motion for an extension of time to file
a petition for rehearing en banc (Dkt. 58) is GRANTED.
The deadline to file such a petition is extended to
September 17, 2019.
 The Honorable Benita Y. Pearson, United States District Judge
for the Northern District of Ohio, sitting by designation.

App.60a
ORDER OF THE UNITED STATES
COURT OF APPEALS FOR THE NINTH CIRCUIT
DENYING PETITION FOR REHEARING EN BANC
(NOVEMBER 5, 2019)
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
________________________
MICHAEL J. MURRAY, M.D. – a Married Man,

Plaintiff-Appellant,
v.
MAYO CLINIC, a Minnesota
Nonprofit Corporation; Et Al.,

Defendants-Appellees.
________________________
No. 17-16803
D.C. No. 2:14-cv-01314-SPL
District of Arizona, Phoenix
Before: GOULD and IKUTA, Circuit Judges,
and PEARSON, District Judge.
The full court was advised of the petition for rehearing en banc. No judge requested a vote on whether
to rehear the matter en banc. The petition for rehearing
en banc is DENIED.

 The Honorable Benita Y. Pearson, United States District Judge
for the Northern District of Ohio, sitting by designation.

App.61a
RELEVANT STATUTORY PROVISIONS
42 U.S.C. § 12112—Discrimination
Effective: January 1, 2009
(a) General Rule
No covered entity shall discriminate against a
qualified individual on the basis of disability in
regard to job application procedures, the hiring,
advancement, or discharge of employees, employee compensation, job training, and other terms,
conditions, and privileges of employment.
(b) Construction
As used in subsection (a), the term “discriminate
against a qualified individual on the basis of
disability” includes—
(1) limiting, segregating, or classifying a job applicant or employee in a way that adversely
affects the opportunities or status of such
applicant or employee because of the disability
of such applicant or employee;
(2) participating in a contractual or other
arrangement or relationship that has the
effect of subjecting a covered entity’s qualified
applicant or employee with a disability to the
discrimination prohibited by this subchapter
(such relationship includes a relationship
with an employment or referral agency, labor
union, an organization providing fringe benefits to an employee of the covered entity, or an
organization providing training and apprenticeship programs);

App.62a
(3) utilizing standards, criteria, or methods of
administration—
(A) that have the effect of discrimination
on the basis of disability; or
(B) that perpetuate the discrimination of
others who are subject to common administrative control;
(4) excluding or otherwise denying equal jobs
or benefits to a qualified individual because
of the known disability of an individual with
whom the qualified individual is known to
have a relationship or association;
(5)
(A) not making reasonable accommodations
to the known physical or mental limitations of an otherwise qualified individual
with a disability who is an applicant or
employee, unless such covered entity can
demonstrate that the accommodation
would impose an undue hardship on
the operation of the business of such
covered entity; or
(B) denying employment opportunities to a
job applicant or employee who is an
otherwise qualified individual with a
disability, if such denial is based on the
need of such covered entity to make reasonable accommodation to the physical
or mental impairments of the employee
or applicant;
(6) using qualification standards, employment
tests or other selection criteria that screen

App.63a
out or tend to screen out an individual with
a disability or a class of individuals with
disabilities unless the standard, test or other
selection criteria, as used by the covered
entity, is shown to be job-related for the
position in question and is consistent with
business necessity; and
(7) failing to select and administer tests concerning employment in the most effective manner
to ensure that, when such test is administered to a job applicant or employee who has
a disability that impairs sensory, manual,
or speaking skills, such test results accurately
reflect the skills, aptitude, or whatever other
factor of such applicant or employee that
such test purports to measure, rather than
reflecting the impaired sensory, manual, or
speaking skills of such employee or applicant
(except where such skills are the factors that
the test purports to measure).
(c) Covered Entities in Foreign Countries
(1) In General
It shall not be unlawful under this section for a
covered entity to take any action that constitutes
discrimination under this section with respect to
an employee in a workplace in a foreign country
if compliance with this section would cause such
covered entity to violate the law of the foreign
country in which such workplace is located.

App.64a
(2) Control of Corporation
(A) Presumption
If an employer controls a corporation whose place
of incorporation is a foreign country, any practice
that constitutes discrimination under this section
and is engaged in by such corporation shall be
presumed to be engaged in by such employer.
(B) Exception
This section shall not apply with respect to the
foreign operations of an employer that is a foreign
person not controlled by an American employer.
(C) Determination
For purposes of this paragraph, the determination
of whether an employer controls a corporation
shall be based on—
(i)

the interrelation of operations;

(ii) the common management;
(iii) the centralized control of labor relations;
and
(iv) the common ownership or financial control,
of the employer and the corporation.
(d) Medical Examinations and Inquiries
(1) In General
The prohibition against discrimination as referred
to in subsection (a) shall include medical examinations and inquiries.

App.65a
(2) Preemployment
(A) Prohibited Examination or Inquiry
Except as provided in paragraph (3), a covered
entity shall not conduct a medical examination
or make inquiries of a job applicant as to whether
such applicant is an individual with a disability
or as to the nature or severity of such disability.
(B) Acceptable Inquiry
A covered entity may make preemployment
inquiries into the ability of an applicant to perform
job-related functions.
(3) Employment Entrance Examination
A covered entity may require a medical examination after an offer of employment has been made
to a job applicant and prior to the commencement
of the employment duties of such applicant, and
may condition an offer of employment on the
results of such examination, if—
(A) all entering employees are subjected to such
an examination regardless of disability;
(B) information obtained regarding the medical
condition or history of the applicant is collected and maintained on separate forms
and in separate medical files and is treated
as a confidential medical record, except that—
(i)

supervisors and managers may be
informed regarding necessary restrictions on the work or duties of the employee and necessary accommodations;

App.66a
(ii) first aid and safety personnel may be
informed, when appropriate, if the disability might require emergency treatment; and
(iii) government officials investigating compliance with this chapter shall be provided relevant information on request;
and
(C) the results of such examination are used only
in accordance with this subchapter.
(4) Examination and Inquiry
(A) Prohibited Examinations and Inquiries
A covered entity shall not require a medical
examination and shall not make inquiries of an
employee as to whether such employee is an
individual with a disability or as to the nature or
severity of the disability, unless such examination
or inquiry is shown to be job-related and consistent with business necessity.
(B) Acceptable Examinations and Inquiries
A covered entity may conduct voluntary medical
examinations, including voluntary medical histories, which are part of an employee health program
available to employees at that work site. A covered
entity may make inquiries into the ability of an
employee to perform job-related functions.
(C) Requirement
Information obtained under subparagraph (B)
regarding the medical condition or history of any

App.67a
employee are subject to the requirements of subparagraphs (B) and (C) of paragraph (3).

42 U.S.C. § 12112—Discrimination
Effective: [See Text Amendments] to December 31, 2008
(a) General Rule
No covered entity shall discriminate against a
qualified individual with a disability because of
the disability of such individual in regard to job
application procedures, the hiring, advancement,
or discharge of employees, employee compensation,
job training, and other terms, conditions, and
privileges of employment.
(b) Construction
As used in subsection (a) of this section, the
term “discriminate” includes—
(1) limiting, segregating, or classifying a job
applicant or employee in a way that adversely
affects the opportunities or status of such
applicant or employee because of the disability of such applicant or employee;
(2) participating in a contractual or other
arrangement or relationship that has the
effect of subjecting a covered entity’s qualified applicant or employee with a disability
to the discrimination prohibited by this subchapter (such relationship includes a relationship with an employment or referral
agency, labor union, an organization providing fringe benefits to an employee of the

App.68a
covered entity, or an organization providing
training and apprenticeship programs);
(3) utilizing standards, criteria, or methods of
administration—
(A) that have the effect of discrimination
on the basis of disability; or
(B) that perpetuate the discrimination of
others who are subject to common administrative control;
(4) excluding or otherwise denying equal jobs
or benefits to a qualified individual because
of the known disability of an individual with
whom the qualified individual is known to
have a relationship or association;
(5)(A) not making reasonable accommodations to
the known physical or mental limitations of
an otherwise qualified individual with a disability who is an applicant or employee,
unless such covered entity can demonstrate
that the accommodation would impose an
undue hardship on the operation of the business of such covered entity; or
(B) denying employment opportunities to a
job applicant or employee who is an
otherwise qualified individual with a
disability, if such denial is based on the
need of such covered entity to make reasonable accommodation to the physical
or mental impairments of the employee
or applicant;
(6) using qualification standards, employment
tests or other selection criteria that screen

App.69a
out or tend to screen out an individual with
a disability or a class of individuals with
disabilities unless the standard, test or other
selection criteria, as used by the covered
entity, is shown to be job-related for the
position in question and is consistent with
business necessity; and
(7) failing to select and administer tests concerning employment in the most effective manner
to ensure that, when such test is administered
to a job applicant or employee who has a
disability that impairs sensory, manual, or
speaking skills, such test results accurately
reflect the skills, aptitude, or whatever other
factor of such applicant or employee that
such test purports to measure, rather than
reflecting the impaired sensory, manual, or
speaking skills of such employee or applicant
(except where such skills are the factors that
the test purports to measure).
(c) Covered Entities in Foreign Countries
(1) In General
It shall not be unlawful under this section for a
covered entity to take any action that constitutes
discrimination under this section with respect to
an employee in a workplace in a foreign country
if compliance with this section would cause such
covered entity to violate the law of the foreign
country in which such workplace is located.

App.70a
(2) Control of Corporation
(A) Presumption
If an employer controls a corporation whose place
of incorporation is a foreign country, any practice
that constitutes discrimination under this section
and is engaged in by such corporation shall be
presumed to be engaged in by such employer.
(B) Exception
This section shall not apply with respect to the
foreign operations of an employer that is a foreign
person not controlled by an American employer.
(C) Determination
For purposes of this paragraph, the determination of whether an employer controls a corporation
shall be based on—
(i)

the interrelation of operations;

(ii) the common management;
(iii) the centralized control of labor relations; and
(iv) the common ownership or financial control,
of the employer and the corporation.
(d) Medical Examinations and Inquiries
(1) In General
The prohibition against discrimination as referred
to in subsection (a) of this section shall include
medical examinations and inquiries.

App.71a
(2) Preemployment
(A) Prohibited Examination or Inquiry
Except as provided in paragraph (3), a covered
entity shall not conduct a medical examination
or make inquiries of a job applicant as to whether
such applicant is an individual with a disability
or as to the nature or severity of such disability.
(B) Acceptable Inquiry
A covered entity may make preemployment inquiries into the ability of an applicant to perform jobrelated functions.
(3) Employment Entrance Examination
A covered entity may require a medical examination after an offer of employment has been made
to a job applicant and prior to the commencement of the employment duties of such applicant,
and may condition an offer of employment on the
results of such examination, if—
(A) all entering employees are subjected to such
an examination regardless of disability;
(B) information obtained regarding the medical
condition or history of the applicant is collected and maintained on separate forms and
in separate medical files and is treated as a
confidential medical record, except that—
(i)

supervisors and managers may be
informed regarding necessary restrictions
on the work or duties of the employee
and necessary accommodations;

App.72a
(ii) first aid and safety personnel may be
informed, when appropriate, if the disability might require emergency treatment; and
(iii) government officials investigating compliance with this chapter shall be provided
relevant information on request; and
(C) the results of such examination are used only
in accordance with this subchapter.
(4) Examination and Inquiry
(A) Prohibited Examinations and Inquiries
A covered entity shall not require a medical
examination and shall not make inquiries of an
employee as to whether such employee is an
individual with a disability or as to the nature or
severity of the disability, unless such examination
or inquiry is shown to be job-related and consistent with business necessity.
(B) Acceptable Examinations and Inquiries
A covered entity may conduct voluntary medical
examinations, including voluntary medical histories, which are part of an employee health program
available to employees at that work site. A covered
entity may make inquiries into the ability of an
employee to perform job-related functions.
(C) Requirement
Information obtained under subparagraph (B)
regarding the medical condition or history of any

App.73a
employee are subject to the requirements of subparagraphs (B) and (C) of paragraph (3).

42 U.S.C. § 2000e-2—
Unlawful Employment Practices
(a) Employer Practices
It shall be an unlawful employment practice for
an employer—
(1) to fail or refuse to hire or to discharge any
individual, or otherwise to discriminate
against any individual with respect to his
compensation, terms, conditions, or privileges
of employment, because of such individual’s
race, color, religion, sex, or national origin; or
(2) to limit, segregate, or classify his employees
or applicants for employment in any way
which would deprive or tend to deprive any
individual of employment opportunities or
otherwise adversely affect his status as an
employee, because of such individual’s race,
color, religion, sex, or national origin.
(b) Employment Agency Practices
It shall be an unlawful employment practice for
an employment agency to fail or refuse to refer
for employment, or otherwise to discriminate
against, any individual because of his race, color,
religion, sex, or national origin, or to classify or
refer for employment any individual on the basis
of his race, color, religion, sex, or national origin.

App.74a
(c) Labor Organization Practices
It shall be an unlawful employment practice for
a labor organization—
(1) to exclude or to expel from its membership,
or otherwise to discriminate against, any
individual because of his race, color, religion,
sex, or national origin;
(2) to limit, segregate, or classify its membership
or applicants for membership, or to classify
or fail or refuse to refer for employment any
individual, in any way which would deprive or
tend to deprive any individual of employment
opportunities, or would limit such employment opportunities or otherwise adversely
affect his status as an employee or as an
applicant for employment, because of such
individual’s race, color, religion, sex, or
national origin; or
(3) to cause or attempt to cause an employer to
discriminate against an individual in violation of this section.
(d) Training Programs
It shall be an unlawful employment practice for
any employer, labor organization, or joint labormanagement committee controlling apprenticeship
or other training or retraining, including on-thejob training programs to discriminate against any
individual because of his race, color, religion, sex,
or national origin in admission to, or employment
in, any program established to provide apprenticeship or other training.

App.75a
(e) Businesses or Enterprises with Personnel
Qualified on Basis of Religion, Sex, or National
Origin; Educational Institutions with Personnel
of Particular Religion
Notwithstanding any other provision of this subchapter, (1) it shall not be an unlawful employment
practice for an employer to hire and employ
employees, for an employment agency to classify,
or refer for employment any individual, for a labor
organization to classify its membership or to
classify or refer for employment any individual, or
for an employer, labor organization, or joint labormanagement committee controlling apprenticeship
or other training or retraining programs to admit
or employ any individual in any such program,
on the basis of his religion, sex, or national
origin in those certain instances where religion,
sex, or national origin is a bona fide occupational
qualification reasonably necessary to the normal
operation of that particular business or enterprise, and (2) it shall not be an unlawful employment practice for a school, college, university, or
other educational institution or institution of
learning to hire and employ employees of a particular religion if such school, college, university,
or other educational institution or institution of
learning is, in whole or in substantial part, owned,
supported, controlled, or managed by a particular
religion or by a particular religious corporation,
association, or society, or if the curriculum of such
school, college, university, or other educational
institution or institution of learning is directed
toward the propagation of a particular religion.

App.76a
(f)

Members of Communist Party or CommunistAction or Communist-Front Organizations
As used in this subchapter, the phrase “unlawful
employment practice” shall not be deemed to
include any action or measure taken by an
employer, labor organization, joint labor-management committee, or employment agency with
respect to an individual who is a member of the
Communist Party of the United States or of
any other organization required to register as a
Communist-action or Communist-front organization by final order of the Subversive Activities
Control Board pursuant to the Subversive Activities Control Act of 1950.

(g) National Security
Notwithstanding any other provision of this subchapter, it shall not be an unlawful employment
practice for an employer to fail or refuse to hire
and employ any individual for any position, for
an employer to discharge any individual from
any position, or for an employment agency to fail
or refuse to refer any individual for employment
in any position, or for a labor organization to fail
or refuse to refer any individual for employment
in any position, if—
(1) the occupancy of such position, or access to
the premises in or upon which any part of
the duties of such position is performed or is
to be performed, is subject to any requirement
imposed in the interest of the national
security of the United States under any
security program in effect pursuant to or
administered under any statute of the United

App.77a
States or any Executive order of the President; and
(2) such individual has not fulfilled or has ceased
to fulfill that requirement.
(h) Seniority or Merit System; Quantity or Quality of
Production; Ability Tests; Compensation Based on
Sex and Authorized by Minimum Wage Provisions
Notwithstanding any other provision of this subchapter, it shall not be an unlawful employment
practice for an employer to apply different standards of compensation, or different terms, conditions, or privileges of employment pursuant to a
bona fide seniority or merit system, or a system
which measures earnings by quantity or quality
of production or to employees who work in different
locations, provided that such differences are not
the result of an intention to discriminate because
of race, color, religion, sex, or national origin, nor
shall it be an unlawful employment practice for
an employer to give and to act upon the results of
any professionally developed ability test provided
that such test, its administration or action upon
the results is not designed, intended or used to
discriminate because of race, color, religion, sex
or national origin. It shall not be an unlawful
employment practice under this subchapter for
any employer to differentiate upon the basis of
sex in determining the amount of the wages or
compensation paid or to be paid to employees of
such employer if such differentiation is authorized
by the provisions of section 206(d) of Title 29.

App.78a
(i)

Businesses or Enterprises Extending Preferential Treatment to Indians
Nothing contained in this subchapter shall apply
to any business or enterprise on or near an
Indian reservation with respect to any publicly
announced employment practice of such business or enterprise under which a preferential
treatment is given to any individual because he
is an Indian living on or near a reservation.

(j)

Preferential Treatment Not to Be Granted on
Account of Existing Number or Percentage
Imbalance
Nothing contained in this subchapter shall be
interpreted to require any employer, employment
agency, labor organization, or joint labor-management committee subject to this subchapter to
grant preferential treatment to any individual or
to any group because of the race, color, religion,
sex, or national origin of such individual or group
on account of an imbalance which may exist with
respect to the total number or percentage of persons of any race, color, religion, sex, or national
origin employed by any employer, referred or
classified for employment by any employment
agency or labor organization, admitted to membership or classified by any labor organization, or
admitted to, or employed in, any apprenticeship
or other training program, in comparison with
the total number or percentage of persons of
such race, color, religion, sex, or national origin
in any community, State, section, or other area,
or in the available work force in any community,
State, section, or other area.

App.79a
(k) Burden of Proof in Disparate Impact Cases
(1)(A) An unlawful employment practice based
on disparate impact is established under this
subchapter only if—
(i)

a complaining party demonstrates that
a respondent uses a particular employment practice that causes a disparate
impact on the basis of race, color, religion,
sex, or national origin and the respondent
fails to demonstrate that the challenged
practice is job related for the position in
question and consistent with business
necessity; or

(ii) the complaining party makes the demonstration described in subparagraph (C)
with respect to an alternative employment practice and the respondent refuses
to adopt such alternative employment
practice.
(B)
(i)

With respect to demonstrating that a
particular employment practice causes
a disparate impact as described in subparagraph (A)(i), the complaining party
shall demonstrate that each particular
challenged employment practice causes
a disparate impact, except that if the
complaining party can demonstrate to
the court that the elements of a respondent’s decisionmaking process are not
capable of separation for analysis, the
decisionmaking process may be analyzed
as one employment practice.

App.80a
(ii) If the respondent demonstrates that a
specific employment practice does not
cause the disparate impact, the respondent shall not be required to demonstrate
that such practice is required by business
necessity.
(C) The demonstration referred to by subparagraph (A)(ii) shall be in accordance with the
law as it existed on June 4, 1989, with respect
to the concept of “alternative employment
practice”.
(2) A demonstration that an employment practice is required by business necessity may not be
used as a defense against a claim of intentional
discrimination under this subchapter.
(3) Notwithstanding any other provision of this
subchapter, a rule barring the employment of an
individual who currently and knowingly uses or
possesses a controlled substance, as defined in
schedules I and II of section 102(6) of the Controlled Substances Act (21 U.S.C. 802(6)), other
than the use or possession of a drug taken under
the supervision of a licensed health care professional, or any other use or possession authorized
by the Controlled Substances Act or any other
provision of Federal law, shall be considered an
unlawful employment practice under this subchapter only if such rule is adopted or applied
with an intent to discriminate because of race,
color, religion, sex, or national origin.

App.81a
(l)

Prohibition of Discriminatory Use of Test Scores
It shall be an unlawful employment practice for
a respondent, in connection with the selection or
referral of applicants or candidates for employment or promotion, to adjust the scores of, use
different cutoff scores for, or otherwise alter the
results of, employment related tests on the basis
of race, color, religion, sex, or national origin.

(m) Impermissible Consideration of Race, Color,
Religion, Sex, or National Origin in Employment
Practices
Except as otherwise provided in this subchapter,
an unlawful employment practice is established
when the complaining party demonstrates that
race, color, religion, sex, or national origin was a
motivating factor for any employment practice,
even though other factors also motivated the
practice.
(n) Resolution of Challenges to Employment Practices
Implementing Litigated or Consent Judgments
or Orders
(1)(A) Notwithstanding any other provision of
law, and except as provided in paragraph (2), an
employment practice that implements and is
within the scope of a litigated or consent judgment or order that resolves a claim of employment discrimination under the Constitution or
Federal civil rights laws may not be challenged
under the circumstances described in subparagraph (B).

App.82a
(B) A practice described in subparagraph (A)
may not be challenged in a claim under the
Constitution or Federal civil rights laws—
(i)

by a person who, prior to the entry of
the judgment or order described in subparagraph (A), had—
(I)

actual notice of the proposed judgment or order sufficient to apprise
such person that such judgment or
order might adversely affect the
interests and legal rights of such
person and that an opportunity
was available to present objections
to such judgment or order by a
future date certain; and

(II) a reasonable opportunity to present
objections to such judgment or order;
or
(ii) by a person whose interests were adequately represented by another person
who had previously challenged the judgment or order on the same legal grounds
and with a similar factual situation,
unless there has been an intervening
change in law or fact.
(2) Nothing in this subsection shall be construed
to—
(A) alter the standards for intervention
under rule 24 of the Federal Rules of
Civil Procedure or apply to the rights of
parties who have successfully intervened

App.83a
pursuant to such rule in the proceeding
in which the parties intervened;
(B) apply to the rights of parties to the action
in which a litigated or consent judgment
or order was entered, or of members of a
class represented or sought to be represented in such action, or of members of a
group on whose behalf relief was sought
in such action by the Federal Government;
(C) prevent challenges to a litigated or
consent judgment or order on the ground
that such judgment or order was obtained through collusion or fraud, or is
transparently invalid or was entered by
a court lacking subject matter jurisdiction; or
(D) authorize or permit the denial to any
person of the due process of law required
by the Constitution.
(3) Any action not precluded under this subsection that challenges an employment consent
judgment or order described in paragraph
(1) shall be brought in the court, and if
possible before the judge, that entered such
judgment or order. Nothing in this subsection
shall preclude a transfer of such action pursuant to section 1404 of Title 28.

App.84a
42 U.S.C. § 12117—Enforcement
(a) Powers, Remedies, and Procedures
The powers, remedies, and procedures set forth
in sections 2000e-4, 2000e-5, 2000e-6, 2000e-8,
and 2000e-9 of this title shall be the powers,
remedies, and procedures this subchapter provides
to the Commission, to the Attorney General, or to
any person alleging discrimination on the basis
of disability in violation of any provision of this
chapter, or regulations promulgated under section
12116 of this title, concerning employment.
(b) Coordination
The agencies with enforcement authority for actions which allege employment discrimination
under this subchapter and under the Rehabilitation Act of 1973 shall develop procedures to ensure
that administrative complaints filed under this
subchapter and under the Rehabilitation Act of
1973 are dealt with in a manner that avoids
duplication of effort and prevents imposition of
inconsistent or conflicting standards for the same
requirements under this subchapter and the
Rehabilitation Act of 1973. The Commission, the
Attorney General, and the Office of Federal Contract Compliance Programs shall establish such
coordinating mechanisms (similar to provisions
contained in the joint regulations promulgated
by the Commission and the Attorney General
at part 42 of title 28 and part 1691 of title 29, Code
of Federal Regulations, and the Memorandum of
Understanding between the Commission and the
Office of Federal Contract Compliance Programs
dated January 16, 1981 (46 Fed.Reg. 7435, Jan-

App.85a
uary 23, 1981)) in regulations implementing this
subchapter and Rehabilitation Act of 1973 not
later than 18 months after July 26, 1990.
42 U.S.C. § 2000e-5—Enforcement Provisions
(a) Power of Commission to Prevent Unlawful
Employment Practices
The Commission is empowered, as hereinafter
provided, to prevent any person from engaging
in any unlawful employment practice as set
forth in section 2000e-2 or 2000e-3 of this title.
(b) Charges By Persons Aggrieved or Member of
Commission of Unlawful Employment Practices
By Employers, etc.; Filing; Allegations; Notice to
Respondent; Contents of Notice; Investigation By
Commission; Contents of Charges; Prohibition on
Disclosure of Charges; Determination of Reasonable Cause; Conference, Conciliation, and Persuasion for Elimination of Unlawful Practices; Prohibition on Disclosure of Informal Endeavors to End
Unlawful Practices; Use of Evidence in Subsequent Proceedings; Penalties for Disclosure of
Information; Time for Determination of Reasonable Cause
Whenever a charge is filed by or on behalf of a
person claiming to be aggrieved, or by a member
of the Commission, alleging that an employer,
employment agency, labor organization, or joint
labor-management committee controlling apprenticeship or other training or retraining, including
on-the-job training programs, has engaged in an
unlawful employment practice, the Commission

App.86a
shall serve a notice of the charge (including the
date, place and circumstances of the alleged
unlawful employment practice) on such employer,
employment agency, labor organization, or joint
labor-management committee (hereinafter referred
to as the “respondent”) within ten days, and shall
make an investigation thereof. Charges shall be
in writing under oath or affirmation and shall
contain such information and be in such form as
the Commission requires. Charges shall not be
made public by the Commission. If the Commission
determines after such investigation that there is
not reasonable cause to believe that the charge
is true, it shall dismiss the charge and promptly
notify the person claiming to be aggrieved and the
respondent of its action. In determining whether
reasonable cause exists, the Commission shall
accord substantial weight to final findings and
orders made by State or local authorities in proceedings commenced under State or local law
pursuant to the requirements of subsections (c)
and (d). If the Commission determines after such
investigation that there is reasonable cause to
believe that the charge is true, the Commission
shall endeavor to eliminate any such alleged
unlawful employment practice by informal methods of conference, conciliation, and persuasion.
Nothing said or done during and as a part of
such informal endeavors may be made public by
the Commission, its officers or employees, or
used as evidence in a subsequent proceeding without the written consent of the persons concerned.
Any person who makes public information in
violation of this subsection shall be fined not more
than $1,000 or imprisoned for not more than one

App.87a
year, or both. The Commission shall make its
determination on reasonable cause as promptly
as possible and, so far as practicable, not later
than one hundred and twenty days from the filing
of the charge or, where applicable under subsection
(c) or (d), from the date upon which the Commission is authorized to take action with respect to the
charge.
(c)

State or Local Enforcement Proceedings; Notification of State or Local Authority; Time for
Filing Charges with Commission; Commencement
of Proceedings
In the case of an alleged unlawful employment
practice occurring in a State, or political subdivision of a State, which has a State or local law
prohibiting the unlawful employment practice
alleged and establishing or authorizing a State
or local authority to grant or seek relief from such
practice or to institute criminal proceedings with
respect thereto upon receiving notice thereof, no
charge may be filed under subsection (a)1 by the
person aggrieved before the expiration of sixty
days after proceedings have been commenced
under the State or local law, unless such proceedings have been earlier terminated, provided
that such sixty-day period shall be extended to
one hundred and twenty days during the first
year after the effective date of such State or local
law. If any requirement for the commencement
of such proceedings is imposed by a State or local
authority other than a requirement of the filing
of a written and signed statement of the facts
upon which the proceeding is based, the proceeding shall be deemed to have been commenced for

App.88a
the purposes of this subsection at the time such
statement is sent by registered mail to the appropriate State or local authority.
(d) State or Local Enforcement Proceedings; Notification of State or Local Authority; Time for Action
on Charges by Commission
In the case of any charge filed by a member of
the Commission alleging an unlawful employment
practice occurring in a State or political subdivision of a State which has a State or local law
prohibiting the practice alleged and establishing
or authorizing a State or local authority to grant
or seek relief from such practice or to institute
criminal proceedings with respect thereto upon
receiving notice thereof, the Commission shall,
before taking any action with respect to such
charge, notify the appropriate State or local
officials and, upon request, afford them a reasonable time, but not less than sixty days (provided that such sixty-day period shall be extended to one hundred and twenty days during
the first year after the effective day of such
State or local law), unless a shorter period is
requested, to act under such State or local law to
remedy the practice alleged.
(e) Time for Filing Charges; Time for Service of Notice
of Charge on Respondent; Filing of Charge by
Commission with State or Local Agency; Seniority
System
(1) A charge under this section shall be filed
within one hundred and eighty days after the
alleged unlawful employment practice occurred

App.89a
and notice of the charge (including the date,
place and circumstances of the alleged unlawful
employment practice) shall be served upon the
person against whom such charge is made within
ten days thereafter, except that in a case of an
unlawful employment practice with respect to
which the person aggrieved has initially instituted
proceedings with a State or local agency with
authority to grant or seek relief from such practice
or to institute criminal proceedings with respect
thereto upon receiving notice thereof, such charge
shall be filed by or on behalf of the person
aggrieved within three hundred days after the
alleged unlawful employment practice occurred,
or within thirty days after receiving notice that
the State or local agency has terminated the proceedings under the State or local law, whichever is
earlier, and a copy of such charge shall be filed by
the Commission with the State or local agency.
(2) For purposes of this section, an unlawful
employment practice occurs, with respect to a
seniority system that has been adopted for an
intentionally discriminatory purpose in violation
of this subchapter (whether or not that discriminatory purpose is apparent on the face of the
seniority provision), when the seniority system
is adopted, when an individual becomes subject
to the seniority system, or when a person aggrieved
is injured by the application of the seniority
system or provision of the system.
(3)
(A) For purposes of this section, an unlawful
employment practice occurs, with respect to
discrimination in compensation in violation

App.90a
of this subchapter, when a discriminatory
compensation decision or other practice is
adopted, when an individual becomes subject
to a discriminatory compensation decision or
other practice, or when an individual is
affected by application of a discriminatory
compensation decision or other practice,
including each time wages, benefits, or other
compensation is paid, resulting in whole or
in part from such a decision or other practice.
(B) In addition to any relief authorized by section
1981a of this title, liability may accrue and
an aggrieved person may obtain relief as
provided in subsection (g)(1), including recovery of back pay for up to two years preceding
the filing of the charge, where the unlawful
employment practices that have occurred
during the charge filing period are similar
or related to unlawful employment practices
with regard to discrimination in compensation
that occurred outside the time for filing a
charge.

App.91a
(f)

Civil Action by Commission, Attorney General,
or Person Aggrieved; Preconditions; Procedure;
Appointment of Attorney; Payment of Fees, Costs,
or Security; Intervention; Stay of Federal Proceedings; Action for Appropriate Temporary or
Preliminary Relief Pending Final Disposition of
Charge; Jurisdiction and Venue of United States
Courts; Designation of Judge to Hear and Determine Case; Assignment of Case for Hearing;
Expedition of Case; Appointment of Master
(1) If within thirty days after a charge is filed
with the Commission or within thirty days after
expiration of any period of reference under subsection (c) or (d), the Commission has been unable
to secure from the respondent a conciliation agreement acceptable to the Commission, the Commission may bring a civil action against any respondent not a government, governmental agency, or
political subdivision named in the charge. In the
case of a respondent which is a government, governmental agency, or political subdivision, if the
Commission has been unable to secure from the
respondent a conciliation agreement acceptable to
the Commission, the Commission shall take no
further action and shall refer the case to the
Attorney General who may bring a civil action
against such respondent in the appropriate United
States district court. The person or persons
aggrieved shall have the right to intervene in a
civil action brought by the Commission or the
Attorney General in a case involving a government, governmental agency, or political subdivision. If a charge filed with the Commission pursuant to subsection (b) is dismissed by the Com-

App.92a
mission, or if within one hundred and eighty days
from the filing of such charge or the expiration
of any period of reference under subsection (c) or
(d), whichever is later, the Commission has not
filed a civil action under this section or the
Attorney General has not filed a civil action in a
case involving a government, governmental
agency, or political subdivision, or the Commission
has not entered into a conciliation agreement to
which the person aggrieved is a party, the Commission, or the Attorney General in a case involving
a government, governmental agency, or political
subdivision, shall so notify the person aggrieved
and within ninety days after the giving of such
notice a civil action may be brought against the
respondent named in the charge (A) by the person
claiming to be aggrieved or (B) if such charge
was filed by a member of the Commission, by any
person whom the charge alleges was aggrieved
by the alleged unlawful employment practice.
Upon application by the complainant and in such
circumstances as the court may deem just, the
court may appoint an attorney for such complainant and may authorize the commencement of
the action without the payment of fees, costs, or
security. Upon timely application, the court may,
in its discretion, permit the Commission, or the
Attorney General in a case involving a government,
governmental agency, or political subdivision, to
intervene in such civil action upon certification
that the case is of general public importance.
Upon request, the court may, in its discretion,
stay further proceedings for not more than sixty
days pending the termination of State or local
proceedings described in subsection (c) or (d) of

App.93a
this section or further efforts of the Commission
to obtain voluntary compliance.
(2) Whenever a charge is filed with the Commission and the Commission concludes on the basis
of a preliminary investigation that prompt judicial
action is necessary to carry out the purposes of
this Act, the Commission, or the Attorney General
in a case involving a government, governmental
agency, or political subdivision, may bring an
action for appropriate temporary or preliminary
relief pending final disposition of such charge.
Any temporary restraining order or other order
granting preliminary or temporary relief shall
be issued in accordance with rule 65 of the Federal Rules of Civil Procedure. It shall be the duty of
a court having jurisdiction over proceedings under
this section to assign cases for hearing at the
earliest practicable date and to cause such cases
to be in every way expedited.
(3) Each United States district court and each
United States court of a place subject to the
jurisdiction of the United States shall have jurisdiction of actions brought under this subchapter.
Such an action may be brought in any judicial
district in the State in which the unlawful
employment practice is alleged to have been
committed, in the judicial district in which the
employment records relevant to such practice
are maintained and administered, or in the judicial district in which the aggrieved person would
have worked but for the alleged unlawful employment practice, but if the respondent is not found
within any such district, such an action may be
brought within the judicial district in which the

App.94a
respondent has his principal office. For purposes
of sections 1404 and 1406 of Title 28, the judicial
district in which the respondent has his principal office shall in all cases be considered a district in which the action might have been brought.
(4) It shall be the duty of the chief judge of the
district (or in his absence, the acting chief judge)
in which the case is pending immediately to designate a judge in such district to hear and determine
the case. In the event that no judge in the district is available to hear and determine the case,
the chief judge of the district, or the acting chief
judge, as the case may be, shall certify this fact
to the chief judge of the circuit (or in his absence,
the acting chief judge) who shall then designate
a district or circuit judge of the circuit to hear
and determine the case.
(5) It shall be the duty of the judge designated
pursuant to this subsection to assign the case for
hearing at the earliest practicable date and to
cause the case to be in every way expedited. If
such judge has not scheduled the case for trial
within one hundred and twenty days after issue
has been joined, that judge may appoint a master
pursuant to rule 53 of the Federal Rules of Civil
Procedure.
(g) Injunctions; Appropriate Affirmative Action;
Equitable Relief; Accrual of Back Pay; Reduction
of Back Pay; Limitations on Judicial Orders
(1) If the court finds that the respondent has
intentionally engaged in or is intentionally engaging in an unlawful employment practice charged
in the complaint, the court may enjoin the respond-

App.95a
ent from engaging in such unlawful employment
practice, and order such affirmative action as may
be appropriate, which may include, but is not
limited to, reinstatement or hiring of employees,
with or without back pay (payable by the employer, employment agency, or labor organization, as
the case may be, responsible for the unlawful
employment practice), or any other equitable relief
as the court deems appropriate. Back pay liability
shall not accrue from a date more than two years
prior to the filing of a charge with the Commission. Interim earnings or amounts earnable with
reasonable diligence by the person or persons
discriminated against shall operate to reduce the
back pay otherwise allowable.
(2)
(A) No order of the court shall require the
admission or reinstatement of an individual as
a member of a union, or the hiring, reinstatement, or promotion of an individual as
an employee, or the payment to him of any
back pay, if such individual was refused
admission, suspended, or expelled, or was
refused employment or advancement or was
suspended or discharged for any reason other
than discrimination on account of race, color,
religion, sex, or national origin or in violation
of section 2000e-3(a) of this title.
(B) On a claim in which an individual proves a
violation under section 2000e-2(m) of this
title and a respondent demonstrates that the
respondent would have taken the same action
in the absence of the impermissible motivating factor, the court—

App.96a
(i)

may grant declaratory relief, injunctive
relief (except as provided in clause (ii)),
and attorney’s fees and costs demonstrated to be directly attributable only
to the pursuit of a claim under section
2000e-2(m) of this title; and

(ii) shall not award damages or issue an
order requiring any admission, reinstatement, hiring, promotion, or payment,
described in subparagraph (A).
(h) Provisions of Chapter 6 of Title 29 Not Applicable
to Civil Actions for Prevention of Unlawful
Practices
The provisions of chapter 6 of Title 29 shall not
apply with respect to civil actions brought under
this section.
(i)

Proceedings by Commission to Compel Compliance
with Judicial Orders
In any case in which an employer, employment
agency, or labor organization fails to comply with
an order of a court issued in a civil action brought
under this section, the Commission may commence
proceedings to compel compliance with such order.

(j)

Appeals
Any civil action brought under this section and
any proceedings brought under subsection (i) shall
be subject to appeal as provided in sections 1291
and 1292, Title 28.

App.97a
(k) Attorney’s Fee; Liability of Commission and United
States for Costs
In any action or proceeding under this subchapter the court, in its discretion, may allow
the prevailing party, other than the Commission
or the United States, a reasonable attorney’s fee
(including expert fees) as part of the costs, and
the Commission and the United States shall be
liable for costs the same as a private person.

App.98a
MICHAEL MURRAY–DIRECT EXAMINATION
REPORTER’S TRANSCRIPT OF PROCEEDINGS,
JURY TRIAL DAY 1, EXCERPT
(AUGUST 15, 2017)
UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF ARIZONA
________________________
MICHAEL J. MURRAY,

Plaintiff,
v.
MAYO CLINIC, ET AL.,

Defendants.
________________________
No. CV-14-1314-PHX-SPL
Before: Honorable Steven P. LOGAN,
United States District Judge.

[August 15, 2017 Transcript, p. 234]
A.

July 31st, 1986, to October 3rd, 2016, 30 years.

Q.

Okay. And during that time, were you deployed
at all?

A.

Yes, sir.

Q.

Okay. How many times?

A.

Seven times. But between 1986 and 2003 only
twice. Between 2003 and 2012, five times. Because
after 911 things have changed dramatically.

App.99a
Q.

Okay. And where were you deployed?

A.

To the Army’s biggest hospital in San Antonio, I
went there twice. I went to Kuwait. I went to
Afghanistan. I went to Iraq. And my last deployment was Germany.

Q.

Okay. And talking about your last deployment,
what were the dates of that deployment?

A.

March 24th of 2012 through March 26th of 2013.
But then the orders kept getting extended.

Q.

Okay. After you finally ended that deployment,
did you return to your employer?

A.

Yes.

Q.

And that employer was?

A.

Mayo Clinic.

Q.

And how was the return to Mayo Clinic after
your deployment?

A.

I was happy to get back to work. I had some pretty bad experiences in Germany. I spent seven
months in a Warrior Transition Unit in San
Antonio—excuse me, in El Paso when I . . . .

App.100a
MICHAEL MURRAY–DIRECT EXAMINATION,
JURY TRIAL DAY 2, EXCERPT
(AUGUST 16, 2017)
UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF ARIZONA
________________________
MICHAEL J. MURRAY,

Plaintiff,
v.
MAYO CLINIC, ET AL.,

Defendants.
________________________
No. CV-14-1314-PHX-SPL
Before: Honorable Steven P. LOGAN,
United States District Judge.

[August 16, 2017 Transcript, p. 243]
. . . I was also a dean, I used to come into Phoenix
on a regular basis for some programs we were
trying to implement here in the southwest. I was
the Director of Public Services for Mayo. I did it
for eight years, it’s normally a three-year appointment. So I was Mayo’s face in St. Paul, state
capital Washington, D.C. I was a lot of other
things. I was on the Board of Directors for the
for profit arm of Mayo Clinic, we brought in several hundred million dollars a year to Mayo.

App.101a
I wore a lot of hats for Mayo.
Q.

All right. Thank you, Dr. Murray.
Now, about three months after you returned—
about three months after you returned to Mayo
Clinic Arizona from your deployment with the
military, there was an incident in operating
room 6. Do you remember that?

A.

Yes, sir.

Q.

And we’re talking about an incident that occurred
on February 19th of 2014?

A.

Yes.

Q.

Okay. How did that day start?

A.

I always arrive early, between 5:00 and 6:00 in
the morning. I sit at my desk, I have something
to eat. I take care of some administrative issues.
I was on the Finance Committee for Mayo Clinic
Arizona for their research programs. And I was
still trying to finish up some of that business
from before I deployed.
And then around 6:00 o’clock in the morning I
start seeing patients. And I had that particular
day—the way I explain it to patients, because
patients don’t understand what happens up in a
confined space in the operating room, I use an
analogy that my son gave me, and he’s a graduate
of the Naval Academy, he’s a pilot. And the first
time he flew in combat, I said, Carl, you haven’t
been out of the academy that long, you’re going
to be landing in a combat zone. There have been
other people in this room that have landed in a
combat zone. It’s stressful.

App.102a
He said, well, Dad, there’s a mission commander
and a flight commander on board. It’s a big
plane, it’s a submarine hunter.
And so it’s kind of the analogy I use with patients.
I said, I’m going to be your pilot today. There’s a
copilot—that’s the woman who has been potentially
called as a witness—Jenn Warner, she’s a certified
registered nurse anesthetist. She’s going to be
involved in your care.
As it turns out today I’m also a flight commander,
because I’ve got responsible for other rooms. But
during the procedure today, takeoff and landing,
the pilot at the copilot will be in the room with
you. One of us will be with you at all times.
And I explain for the first two patients I’m going
to see that day—I was covering two rooms. Explain what’s going to happen, we’re going to
wheel them into the room, on a gurney, move
them over onto the operating room table, place
their monitors, EKG, blood pressure, oxygen
monitors, administer several different medications, a medication like Valium called midazolam,
Fentanyl.
Q.

Dr. Murray, let me interrupt you. Could you spell
those for the court reporter?

A.

Oh, midazolam, M-I-D-A-Z-O-L-A-M. A medication called Fentanyl, F-E-N-T-A-N-Y-L. Most of
people have heard of that because of Prince. And
what most people are afraid of is propofol. I’d
say one in five patients asks, is it safe? And I go
through a lengthy explanation of why it’s safe
the way we’re going to give it.

App.103a
Q.

And this is a—this is an interaction that you
have with every patient or just on that day?

A.

Oh, every patient.

Q.

Okay. Please continue.

A.

So, the day starts, I have two rooms, OR 6,
which we’ll hear about, and OR 17, I have a really
difficult case. It’s—the case is going to go 12
hours, it’s going to be someone with a cancer in the
neck and they’re going to dissect out or cut out of
tumor. There’s going to be a lot of blood loss,
we’re going to be transfusing. And my room 6,
the cases weren’t as difficult. Though I understand
as a patient whenever you have anesthesia it’s a
stressful situation. And that’s why we spend
time.
And then I get the patient’s—or obtain the
patient’s consent for anesthesia. And I am the
pilot, I’m the capital of the ship. In that consent
it says that I will be the person responsible for
their anesthetic care. And also other people may
be involved. And there’s a process for doing that.
If I were to have to use the restroom or something,
and someone were to take over for me, or at
the end of the day if I had to go home for an
emergency, we do what’s called a handoff. That
person, another anesthesiologist, another pilot,
would come into the room, discuss the case with
me, during the safe portions of the procedure. I
would turn it over, and we would transfer electronically the responsibility for that case from
one anesthesiologist to another.

App.104a
But because I was the flight commander that day
I was going to be there until after 6:00 p.m. at
night, I knew.
Q.

And at what time did you begin—excuse me.
At what time did you begin your work in OR 6,
operating room 6?

A.

For the patient in question or the—

Q.

For the case in question.

A.

Fast forward now to 2:00 o’clock in the afternoon.
The patient in room 17, still bleeding. I think at
that point in time we had hung two units of blood,
we’re hanging a third unit. And I had seen the
patient who is going into OR 6, my third patient
of the day.
And about that time as the flight commander I
spoke to another anesthesiologist, Dr. Chien. And
I said, I am going to relieve you of your patients.
And he had two patients in rooms 21 and 22. I’m
not sure, I thought it was—it could have been 22,
23, but one of the rooms they’re just bringing the
patient out. They closed that room, and I took over.
We had a handoff, he showed me everything in the
room. And to the best of my knowledge he went
home for the day, and I went back to room 17,
because the patient was bleeding.
And then we have a light system, it’s on the wall,
you have to know what the numbers mean, but a
light flashes, 6 A. They need the anesthesiologist,
the pilot, in room 6.
So I walk through the door—and you’re going to
see pictures of room 6, I believe.

App.105a
Q.

And, Dr. Murray, could you describe the room as
you walk in just so the jury understands?

A.

So it’s about one sixth the size of this room here.
Ceiling’s obviously not as tall. And in the middle
of the room is the operating room table.
And so to put things in perspective, if the back
wall were maybe six feet behind here, the patient
would be here with her feet up against that door
on the table. And she’s lying here. Her head is
here. (Indicating.) And there’s a nurse anesthetist,
Miss Warner, who we’ll be talking about. And
she’s administering oxygen.
Now it’s a confined space by design, because
whereas I may have a six-foot wing span, most
people don’t. So she has to be able to reach to the
anesthesia machine and control the oxygen that’s
flowing to the patient, and eventually some anesthetic gases, like ether that are going to be administered.

Q.

And, Dr. Murray, when you talk about the confined
space, are you talking about the whole room or
the area in which she is working?

A.

The area in which she is working. And to continue
the analogy, it’s like a cockpit. There’s not a lot
of room, there can’t be, you have to be able to
reach all the instruments. And behind her on this
side here (indicating) is a Craftsman cart that’s
got several drawers with the oxygen masks that
we talked about, it’s got needles for starting
I.V.s, it’s got in the bottom drawer those tubes,
those LMAs, the laryngeal mask airway that
will be discussed, there are tracheal tubes for
putting a tube through the voice box.

App.106a
So the first thing I did is walk up and assure her.
And I’m wearing a mask, so unless she remembers
that I’m really tall, hi, I’m Dr. Murray, we’re going
to get you off to sleep, things look good.
So I’m standing here, (Indicating.) I can see—
THE COURT: I’m sorry, Dr. Murray.
Mr. Blaney, every time your witness makes a gesture for the record, if you could describe what
he’s doing that would be helpful.
MR. BLANEY: Yes, Your Honor.
For the record, Dr. Murray just reached off to the
back of the room as he was describing it, which
would be the patient’s left side.
BY MR. BLANEY:
Q.

Is that correct, Dr. Murray?

A.

That is correct.

Q.

Okay. So for the record, you’re saying that when
you walked in you walked up to the patient’s left
side; correct?

A.

Yes, sir.

Q.

Okay. Please continue. I’m going to interrupt you
several times to—so the jury—so the record is
clear.

A.

Would you prefer that I do that or do you do it?

Q.

If you can, that would be great. We’ll see how it
goes.

A.

I reassured the patient. I can look up on this
monitor that’s here. (Indicating.)

Q.

And “here” being off to your right?

App.107a
A.

Off—I’m standing to the patient’s left. Off to the
patient’s right and maybe two feet above the
patient’s head I can see the monitor.
And I can tell that her heart rate is stable. I can
see her blood pressure measurement. There’s a
little blue squiggle across the screen that shows
the amount of oxygen that she has in her
circulation. It’s called the pulse oximeter.
And just as in an airplane, all this information
is being recorded second by second. We can go
back, just as in an airplane if there’s a mishap,
black box warning, we can find out if there was
any problem.
But everything looked good. I assured her. I nodded
to Miss Warner. I was standing there, she’s
standing here. (Indicating.)

Q.

By “there” you mean the patient’s left side?

A.

Yes. You’re right, you’re going to have to keep
interrupting me. That’s all right.
She starts administering the propofol. And normally we’re pretty—we try to be patient friendly
in every circumstance. We put the I.V. in the
hand opposite of the blood pressure cuff, because
when the blood pressure cuff inflates—and I’m
holding my left arm with the blood pressure cuff
on here—when it inflates, circulation in the arm
stops. Everyone’s had their blood pressure checked.
Well, propofol is extremely irritating, and so we
normally would put the IV in the opposite arm.
We try to stay away from the right arm if the
patient writes with the right hand or vice versa.
But in this case we couldn’t because the patient

App.108a
was undergoing a resection reduction removal of
her left breast, a mastectomy.
So we started to administer the propofol. And I
would have to look at the record to know exactly
how much. But we’ve already told you that
propofol is an incredibly potent drug. And I think
on that day we would have given three tablespoons
of propofol. We don’t measure it in tablespoons,
we measure it in milliliters. But that’s what it
took to get her to sleep.
Q.

And, Dr. Murray, when you say that propofol is
a very potent drug, what do you mean?

A.

It doesn’t take much. It’s how Michael Jackson
died. Everyone is aware of it.
And it will eventually cause her to quit breathing.
And as I’ll explain here in a moment, that was
our ultimate goal, and I’ll explain why.

Q.

I’m sorry, the ultimate goal was?

A.

To get her to quit breathing.

Q.

Please continue.

A.

I’m sorry.
So the propofol is going in, and I’m thinking she
probably had about seven cc’s of propofol. And
it’s got to come up the arm into the heart, go out
through the lungs, come back, go up to the
brain. When you fall asleep, for those of you
who’ve have had it, you think it’s ten seconds.
It’s more like 30 seconds.
But just because you fall asleep, you’re not anesthetized. I’ve got to wait another 60 seconds for
that to happen.

App.109a
And Miss Warner is continuing to give more
medication. And the reason we have to get you
to quit breathing is, when we put that device in,
you saw it yesterday, it’s huge. But those of you
who have a gag reflex, if you gag and you vomit,
end of story.
We had a report where I currently work in June
where someone did that and the patient wasn’t
deep enough, the patient vomited and died.
So it’s a critical portion. It’s why I’ve already explained to the patient, takeoff and landing I’m
going to be there. But I’ve got to wait another 60
seconds.
And I’ve also got to let the computer know that
I’m in the room. The current system I work with
I can backtrack it. The system Mayo had, I had
to log into the computer system.
Q.

And, Dr. Murray, let me interrupt you right there.
While this is happening, what is everybody else
in the operating room doing?

A.

Well, there were multiple people in the operating
room, as was alluded. There were three people
down in the far corner. There’s a desk that falls out
of the wall. And they were the surgical resident,
someone who’s in training to be a surgeon, I
think a medical student, maybe an intern.
There’s a certified surgical tech who’s helping. And
there’s multiple things that happen. We put little
devices on your calves to squeeze the calves
while you’re asleep. There’s blankets, there’s an
arm board to secure your arms while you’re asleep.

App.110a
There are a lot of things that that’s his responsibility.
Over on the other side of the patient on the righthand side of the patient maybe four feet away is
a huge table, probably the size of our table that
Mr. Blaney and I are sitting on, and that’s got
all of the surgical instruments. You wouldn’t
think it would take much, but there’s trays and
trays and trays of instruments.
Q.

Excuse me. And for the record, the table that Dr.
Murray pointed to is approximately four feet by
eight feet.

A.

And so I think in the room at that time there
was a minimum of five people, maybe six people,
plus the patient, plus Miss Warner and me;
nine, ten people in the room.
And all I did is I stepped from the left side of the
patient over here, over to here, (indicating) because
in this position there’s a computer screen, a
keyboard, and I can type in seven letters MJ
Murray, and six numbers, my password.

Q.

And, Dr. Murray, when you said you “stepped
over here,” where is that in relation to the patient,
for the record?

A.

The patient—if the patient were here—

Q.

I’m sorry, the “here” isn’t going to come through
on the record.

A.

At the patient’s head, I was probably three—
three feet away from the patient. I think that’s
about right. I was here. (Indicating.) The anesthesia machine is 42 inches wide, it’s sitting here.

App.111a
(Indicating.) The keyboard is on a table or a little
platform, and I typed in the seven letters, MJ
Murray—eight.
So then all of a sudden someone pushes in between
me and Miss Warner. Now, it was Dr. Chien. He
had already been relieved for day.
I’m sorry, I have to backtrack.
The propofol was still going in, I’m typing the eight
letters. The blood pressure cuff inflated as the
propofol was being administered. Now, as I said,
you can still have your gag reflex and be asleep.
She was asleep, but she had a reflex in her arm
where her arm came up, she moaned. I turned
as Miss Warner said “Dr. Murray,” and I went to
push a button as she said turn off the cuff. And I
pushed the button—and it would be on the
anesthesia machine, which I’ve already indicated,
and you’ll see pictures of it. And pushed the
button that reset the cuff to go off in 45 more
seconds.
Q.

And why did you do that, Dr. Murray?

A.

We monitor blood pressure—where is my wife
when I need her—continuously, and the heart and
your oxygen levels continuously. So every heartbeat shows up. But the blood pressure is only
displayed every two-and-a-half minutes.
So now rather than getting a blood pressure at
two-and-a-half minutes after the previous one,
it’s going to be three hour—three minutes and
15 seconds after the previous one. And it will
keep cycling through the case. And people who

App.112a
have had their—been in a hospital understand,
because the cuff keeps inflating periodically.
So it was at that point in time that Dr. Chien
stepped in.
Q.

And what happened first when Dr. Chien stepped
in? Describe, if you could.

A.

I had already—I turned off—or reset the cuff,
stepped back to type, and all of a sudden there’s
someone between me and Miss Warner who was
there without invitation, without acknowledgement, without permission.

Q.

And how close was this person to the patient at
that time?

A.

Well, if I’m three feet away, two foot shoulders,
he’s within a foot of the patient and practically
touching my left shoulder and Miss Warner’s
right shoulder.
And for anyone just—it would be like—how I felt,
if I would were a pilot on a plane, to continue
this analogy, we’re taking off. That’s what I’ve
told the patient. During takeoff and landing I
will be there. If someone from the back of the
plane, a pilot who is just hitching a ride, walked
into the cockpit and stepped in between the copilot
and the pilot, would the pilot be alarmed? I haven’t
asked anyone to be there. I know everything is
working correctly.
And so I did what I think anyone else would do,
what the American Society of Anesthesiology recommends, there shouldn’t be interruptions, there
shouldn’t be distractions. What are you doing
here?

App.113a
Q.

Before you go any further, Dr. Murray, what
was in your mind in this precise second?

A.

I thought my patient was being threatened.

Q.

And why is that?

A.

Well, it’s never happened to me before that someone would come into that confined work space
without invitation, without permission, without
saying why they’re there. Hey, Dr. Murray, there’s
an emergency next door. Or, hey, Dr. Murray,
something’s not working.
But he just showed up. And I knew there was no
reason for him to be there.

Q.

And if somebody were there to try and tell you
that there’s an emergency next door, would they
tell you that from inside the confined space
where you and the nurse are working?

A.

They’d probably just come in the door and yell,
hey, Murray, we need you next door. And then I
have to attend until the takeoff, until we’re in
the air, I’m staying there, they’re going to have
to get someone else.
But Dr. Chien didn’t respond.

Q.

What was Dr. Chien doing when he pushed in
there?

A.

He started to reach up to the anesthesia machine
here. And that same box that I think you’re going
to see a picture of, he started to attempt to touch
the instruments. And I had no idea what he was
doing. Like a pilot, I didn’t know if he was shutting
down the throttle, if he was adjusting the flaps
on the plane.

App.114a
I said, stop that. And I don’t have a soft voice. I
know he would have heard me. But he continued
to put his hand up. And so I did what I would
hope the pilot would do on a plane if someone
was attempting to tamper with the instruments
during takeoff. I’m standing to the right of the
anesthesia machine. Dr. Chien is standing in
front of the anesthesia machine. And Miss Warner
and the patient are at 90 degree angles from us.
And so I put up my hand to block him from
adjusting the machine. He hit me. He batted
away, and continued to put his hand up and put
his hand on the monitor.
Q.

What was he saying to you at this point, Dr.
Murray?

A.

He wasn’t saying anything. It was so unusual.
And I’ve never had a situation.
And so I did—I complied with what I thought
Mayo’s Mission Statement was, the needs of the
patient come first. Figure it out later, take care
of the patient.
And I forgot about signing in on the keyboard. I
stepped behind him and I pulled him away. And
as I was doing it I said, no one touches that
machine. No one touches my machine. No one
touches my airplane during takeoff. I didn’t say
that, but.

Q.

And when you said that, Dr. Murray, and you
say that you pulled him away, can you tell us in
a—more directly, where did you move him from
and where did you move him to?

App.115a
A.

Sufficient force that as I pulled him away, he
ended up to the—almost where I had been standing, and to the patient’s—the left side of the
patient’s head, and beside Jenn Warner. And the
force of my pulling him away, he backed into the
I.V. pole. And then he came back towards me.
The I.V. pole—

Q.

I’m sorry. Continue, please.
What did he say to you at this point?

A.

He didn’t say anything. And the entire episode,
30, 40 seconds in the operating room, he never
said a word.

Q.

Okay. So when you pulled Dr. Chien away, what
happened next?

A.

Well, he just kind of stared at me. He’s got a mask
on. All I can see are his eyes. And there was no
reaction. He just stood there. And at this point
in time it would be if we were in the cockpit and
I’ve pulled that other pilot out of the cockpit, the
door opens in the cockpit, now everyone in the
back of the plane can see what’s happening.
And the other people in the room were paying
attention. I mean, the people in the corner who
were doing their paperwork, they hear a commotion. Jenn Warner had her back to the entire
confrontation. But they hear me, get out of my
room, we’ll talk about this later.
And because no one has ever seen me do anything
like this, and no one has ever heard me do anything like this, in the 45 years before or since,
they thought I was joking.

App.116a
But then Chien wouldn’t move. And I’ve got to
get back to where he’s standing for when Miss
Warner’s going to put in that breathing device.
I yell at—
Q.

I’m sorry. What was your major concern at this
point, Dr. Murray?

A.

The patient is still at risk. We’re still in takeoff.
The airway isn’t in. I’m supposed to be helping
Miss Warner put the airway in. And if she gets
into problems, do everything I have to do to
secure the patient’s airway, the patient who will
not be breathing, and to make sure we get that
airway in so we can help the patient breathe
until she starts breathing again on her own.
So for a third time—and this time I’m emotional,
I’ll admit it, I’ll own it—I screamed at him, get
out of this room, we’ll talk about it later. And he
left the room without saying a word during the
entire encounter.
So I stepped beside Miss Warner. She inserted that
breathing device, the LMA. I listened to the
patient’s neck and chest to make sure that we
were adequately ventilating her, looked at the
blood pressure cuff. All that information—the
blood pressure cuff now is getting ready to go off
again because it’s been 45 seconds.
Miss Warner turned on the medication, like ether
that we were going to keep the patient asleep
with. I completed logging—typed in my password.
Stepped back to Miss Warner, looked around the
room, and I said, are you okay? And she said,
yes.

App.117a
And so we’re in the air, things are looking good,
the patient’s anesthetized. We turn the patient
over to the surgical team, and then they will
start scrubbing the chest wall with antiseptic so
they can make an incision with the scalpel and
perform the surgery.
Q.

And just to be clear, you said there’s a surgical
team and there’s medical personnel that are
working in the operating room; correct?

A.

Yes.

Q.

And was Dr. Chien assigned to that operating
room?

A.

No.

Q.

Was Dr. Chien a part of that surgical team?

A.

No.

Q.

How quickly did everything happen—from the time
that Dr. Chien pushed between you and the
patient, and the time that he finally left the
room, how much time had passed?

A.

Thirty, 40 seconds max. It couldn’t have been,
because the propofol had been administered, we
still hadn’t—still hadn’t put the LMA in. So
about 30 to 40 seconds.

Q.

So the condition that the patient was in at that
point when Dr. Chien pushed between the patient
and you, is a patient in that state capable of
defending herself?

A.

No. She’s so deeply anesthetized she can’t even
breath.

App.118a
Q.

Is a patient in that state able to tell you, I can’t
breath? [sic]

A.

No. We’re monitoring it. That mask that we have
hooks up to another device we have on the machine
that will tell us how much carbon dioxide she’s
breathing.
When we breathe in, we breath in oxygen. When
we breath out, we breath out carbon dioxide. And
it will tell us that we are delivering adequate
breaths in frequency and in depth of the breath,
i.e. a cup, two cups, ah versus ooh.
It measures everything for us. Modern technology
is phenomenal. But it still takes people to fly the
plane, it still takes people to take care of the
patient.

Q.

And, Dr. Murray, during the course of this event,
the 30 to 40 seconds you were just discussing,
did you know what Dr. Chien’s intentions were?

A.

I never had any clue. He never said a word.

Q.

Did somebody later tell you that he was just
trying to help you with the machine?

MR. LOMAX: Objection.
[...]
. . . my patient.
And Dr. Rosenfeld said, I believe, serious matter,
we’re going to put you on administrative leave. I
said, what do I do? Sit in your office. I said, I’ve
got three patients. We’ll take care of it.

App.119a
So I went, closed my door, and sat in my office
from—by that time maybe ten to 7:00, 7:00
o’clock, until 3:30 in the afternoon.
Q.

Okay. At some point—or what happened at 3:30
in the afternoon?

A.

I went home.

Q.

All right. At some point did you receive a phone
call from anybody at Mayo Clinic Arizona?

A.

Yes. Dr. Rosenfeld called me, and he said, Mike,
I’m with Dr. Krahn, she wants to speak with
you.
And I’m paraphrasing the conversation, but in
essence, we are investigating what happened in
the OR yesterday. I can’t meet with you now.
You are on administrative leave for now. This is
a serious matter.
That’s all I remember her saying.

Q.

Okay. And after your conversation with Dr.
Rosenfeld and Dr. Krahn, what did you do next?

A.

I was already pretty distraught.

Q.

Why?

A.

Two or three people came into my office that day
and told . . .
[...]
. . . and leaving a voicemail?

A.

Yes. I saw Dr. Bright, who my wife found because
on the Mayo website it said that he specialized
in PTSD. I saw him Friday, and he indicated it
might be best to go back and see another psych-

App.120a
iatrist, Dr. Grove, who I had once seen in 2011,
2010, a couple years prior.
And so we made arrangements for me to see Dr.
Grove on Monday.
Q.

Okay. And after your meeting with Dr. Grove,
what happened?

A.

He is the one who placed me on the family—on
medical leave in compliance with the Family
Medical Leave Act.

Q.

So when you say “in compliance with the Family
Medical Leave Act,” is this commonly referred to
as FMLA leave?

A.

Yes.

Q.

Just to keep the record clear.
What kind of feelings were you having at this point
that put you on—that made you seek out FMLA
leave?

A.

I was sad, I was depressed, I was having nightmares again, and I was suicidal.

Q.

Okay. How soon did—do you know how soon your
wife notified Mayo Clinic that you needed medical leave?
Let me withdraw that.
Do you know how soon Dr. Grove contacted Mayo
Clinic Arizona and requested medical leave?

A.

I thought he called Occupational Health that afternoon when I was in his private office. Dr. Grove
has two offices, one at Mayo Clinic and one east of
the Mayo Clinic on Shea Boulevard, off of Shea.
It’s not east, west. Getting my directions confused.

App.121a
Q.

And—I’m sorry.

A.

I saw him in his private office. And he said, we’ll
put you on medical leave and get you some help.
And made a referral for me to the Banner mental—
or Behavioral Health facility off of the 101.

Q.

Okay. And do you know if Mayo Clinic Arizona,
in fact, placed you on FMLA leave?

A.

Yes.

Q.

Okay. And how do you know?

A.

I—e-mails.

Q.

Do you have a specific e-mail in mind?

A.

He told me I was on Family Medical Leave Act—
that I was on medical leave. And I knew that I
had this investigation ongoing. That was the
source of all my mental health issues.
So I called the Sleep Medicine Department where
Dr. Krahn works to let her know. And however
it worked out, no one answered the phone, and
so I left a message, just that, Dr. Krahn, I’m on
medical leave. And I believe the next day I received
e-mail confirmation.

Q.

And who did that e-mail come from?

A.

I thought it came from Dr. Trentman. Maybe
both Dr. Trentman and Dr. Krahn, we know
you’re on Family Medical Leave Act.

Q.

Okay. Bear with me for a minute, Doctor.

MR. BLANEY: For the record I’m showing opposing
counsel what’s been previously marked Exhibit
20. It’s been stipulated to and already admitted,
Your Honor.

App.122a
THE COURT: You may publish.
MR. BLANEY: Thank you, Your Honor.
BY MR. BLANEY:
Q.

Dr. Murray, you’ll see on your screen in front of
you a document. I think you also have the physical document in front of you, if that’s easier. It
would be Exhibit 20.

A.

Yes, sir.

Q.

Okay. If you would turn to the second page of
this document, Dr. Murray. You’ll see at the
bottom where it says, provider’s name and business address?

A.

Yes.

Q.

Do you see where it was Gary Grove, M.D.?

A.

Yes, sir.

Q.

And is that the Dr. Grove that you were just
speaking about?

A.

Yes, sir.

Q.

If you could turn to the next page, please. I want
you to go down to line number 10.

A.

Yes, sir.

Q.

Okay. And that states as follows, quote, Dr.
Murray suffers from bipolar II, and then it says,
D.O. Which do you take that as “disorder”?

A.

Yes.

Q.

Is that how in the medical field you would write
“disorder”?

A.

I believe so.

App.123a
Q.

Okay. It continues, quote, with elements of PTSD.
He will require long-term outpatient treatment.
Did I read that correctly?

A.

Yes, sir.

Q.

If you go up to number 9 above it, it states, quote,
problems with anger outbursts, concentration,
close quote.
Did I read that correctly?

A.

Yes, sir.

Q.

Dr. Murray, this is your FMLA paperwork from
the event you were just describing, the medical
leave in the 2014 time frame.
Prior to—prior to your termination in May of 2014,
had you ever seen this paperwork?

A.

No.

Q.

Prior to filing this lawsuit against defendants,
had you ever seen this paperwork?

A.

No, sir.

Q.

Thank you.
[...]

A.

Everything that I recounted today.

Q.

Did you tell them why you did what you did?

A.

I was protecting my patient. I was afraid for my
patient. I said, someone was trying to tamper
with the anesthesia machine.

Q.

And what happened next?

A.

Well, Dr. Trentman said “tamper” is too strong a
word. I didn’t reply.

App.124a
He said, you lied in your e-mail to me in September of 2013.
Q.

Did you ever find out what he—do you know—
let me back up.
What was said next?

A.

Well, then he said, you lied on your credentialing
packet in September of 2013.
This was when I was at Fort Bliss getting cleared
from the Warrior Transition Unit and was returning to Mayo Clinic.

Q.

Did the subject of your FMLA come up at all?

A.

Eventually it did.

Q.

Okay. And what was said about FMLA?

A.

Well, in the conversation you lied on your e-mail,
you lied on your credentialing packet, the next
statement was, you have anger management and
concentration issues.
And that—

Q.

And then what happened next?

App.125a
PLAINTIFF’S CLOSING ARGUMENT
REPORTER’S TRANSCRIPT OF PROCEEDINGS,
JURY TRIAL DAY 5, EXCERPT
(AUGUST 22, 2017)
UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF ARIZONA
________________________
MICHAEL J. MURRAY,

Plaintiff,
v.
MAYO CLINIC, ET AL.,

Defendants.
________________________
No. CV-14-1314-PHX-SPL
Before: Honorable Steven P. LOGAN,
United States District Judge.

[August 22, 2017 Transcript, p. 953]
This doctor, as I mentioned, was also a soldier and
he had just returned from his seventh deployment back to his position as an anesthesiologist
at Mayo Clinic. He was happy to be back, happy
to be back with his colleagues, happy to be back
working for the only employer he ever really
knew in over 30 years.
He thought he was doing the right thing in protecting his patient. But when his supervisors

App.126a
found out that he potentially had PTSD, bipolar,
with some symptoms of this anger management
and concentration difficulties, they fired him.
And they claimed that it was based upon what
he had done in the operating room that day.
Now Dr. Michael Murray is an anesthesiologist.
He’s a doctor. He’s a husband. And he’s a father.
The last position that Dr. Murray held, of course,
was as an anesthesiologist for Mayo Clinic Arizona.
Put prior to that, in the over 30 years that he was
with Mayo Clinic, he wore every hat they asked
him to wear, from doctor, anesthesiologist, public
relations, public affairs officer, administrator.
He was even a professor of medicine at the Mayo
Clinic College of Medicine. He wore every hat
they asked him to wear, and he wore it proudly.
And he served with distinction throughout those
years with Mayo Clinic.
Dr. Murray’s also a soldier—or was also a soldier
until he retired last year after more than 30
years with the U.S. Army. He retired at the rank
of colonel.
During his 30 years he served seven deployments,
as I mentioned, in combat zones from Iraq to
Afghanistan to Kuwait. Dr. Murray loved serving
the Army just like he loved serving Mayo Clinic.
And his last deployment, his final deployment
many was from early 2012 until 2013 when he
returned to Mayo Clinic.
Now the first three months after Dr. Murray
returned from his military deployment to Mayo
Clinic went pretty smoothly. Again, he was happy
to be back with his colleagues, he was happy to

App.127a
be back at Mayo Clinic. He lived and breathed
Mayo Clinic. Happy, of course, to be back from a
war zone.
Again, Mayo Clinic was the only employer that
Dr. Murray really ever knew in his professional
career. He started his career there as a young
intern, and he wanted to finish his career there,
retire from Mayo Clinic one day, some day when
he was—50 years after receiving his medical
degree.
But Dr. Murray’s world changed on February 19th
of 2014. And you’ve heard a lot of discussion
about it during the course of this litigation.
This is a diagram of the operating room, operating
room 6.
Now as I mentioned to you last week, Dr. Murray
arrived early in the morning on February 19th,
2014, began his normal rounds, did his normal
routine. And he was assigned as . . .

App.128a
FIRST AMENDED COMPLAINT
(JURY TRIAL REQUESTED)
(AUGUST 29, 2014)
IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF ARIZONA
________________________
MICHAEL J. MURRAY, M.D., a Married Man,

Plaintiff,
v.
MAYO CLINIC, a Minnesota Nonprofit Corporation;
MAYO CLINIC ARIZONA, an Arizona Nonprofit
Corporation; WYATT DECKER, M.D. and
GEORGIANNA DECKER, Husband and Wife; LOIS
KRAHN, M.D. and ERIC GORDON, M.D., Husband
and Wife; TERRENCE TRENTMAN, M.D. and
LARALEE TRENTMAN, Husband and Wife;
WILLIAM STONE, M.D. and MAREE STONE;
Husband and Wife; DAVID ROSENFELD, M.D. and
MELISSA ROSENFELD, M.D., Husband and Wife;
ROSHANAK DIDEHBON, a Single Woman,

Defendants.
________________________
Case No. CV-2:14-01314-PHX-SPL
For his First Amended Complaint, Plaintiff
Michael Murray, M.D., Ph.D., by and through counsel,
alleges:

App.129a
Nature of the Action
1. This action is brought pursuant to the Unformed Services Employment and Reemployment
Rights Act, 38 U.S.C. § 4301, et seq. (“USERRA”). The
purpose of USERRA is to encourage noncareer service in the military by eliminating or minimizing
the disadvantages to civilian careers and employment
which can result from such service. The law “is to be
liberally construed for the benefit of those who left
private life to serve their country in its hour of need.”1
2. This action is further brought pursuant to the
Americans with Disabilities Act, 42 U.S.C. § 12101, et
seq. (“ADA”), and the Family Medical Leave Act, 29
U.S.C. § 2601, et seq. (“FMLA”), both of which became
relevant as a result of the Post Traumatic Stress Disorder (“PTSD”) and other service-related disabilities
that Dr. Murray incurred and/or aggravated during
his most recent military deployment.
3. Specifically, this is an action involving a decorated military veteran—Dr. Michael Murray—who, upon
returning from his most recent military deployment
to his civilian employment as a physician, was unlawfully and callously terminated by his employer, Mayo
Clinic.
Jurisdiction and Venue
4. This Court has jurisdiction of this action pursuant to 28 U.S.C. § 1331 and 38 U.S.C. § 4323(b)(3).
5. Venue of this matter is proper in the District
of Arizona pursuant to 28 U.S.C. § 1391(b) because a
1 Fishgold v. Sullivan Drydock & Repair Corp., 328 U.S. 275,
285 (1946).

App.130a
substantial part of the events and omissions giving
rise to the claims occurred in Maricopa County in the
District of Arizona. Venue of this matter is also proper
in the District of Arizona pursuant to 38 U.S.C. § 4323
(c)(2) because Defendant Mayo Clinic is a private
employer that maintains a place of business in the
District of Arizona. Each of the Individual Defendants is a resident of Arizona and each has taken actions in violation of USERRA, the consequences of
which have affected Dr. Murray in Arizona.
6. Dr. Murray filed a timely charge of discrimination with the Equal Employment Opportunity Commission and has met all administrative prerequisites
for the bringing of this action. The EEOC issued a
“right-to-sue” letter to Dr. Murray on August 26, 2014.
The Parties
7. At all relevant times, Mayo Clinic was a Minnesota nonprofit corporation, authorized to conduct
business, and engaged in business, in the State of
Arizona. Upon information and belief, Mayo Clinic
Arizona is an Arizona nonprofit corporation domiciled
in Arizona and is a subsidiary of Mayo Clinic.
8. Both Mayo Clinic and Mayo Clinic Arizona
were, at all relevant times, engaged in an industry
affecting commerce and employed more than fifty (50)
regular employees at their respective sites for each
working day during each of twenty (20) or more
calendar weeks in each calendar year. Further, both
Mayo Clinic and Mayo Clinic Arizona were, and continue to be, entities that pay salary or wages for work
performed, and are therefore “employers” pursuant
to § 4303(4)(A) of USERRA.

App.131a
9. Mayo Clinic, through its Board of Governors/
Executive Committee of Board of Trustees (“MCBOG”),
is deeply involved in the personnel activities of Mayo
Clinic in Arizona. As just one example, Mayo Clinic
in its Bylaws expressly reserves to itself: (1) responsibility for Mayo Clinic Arizona’s compensation and
benefit policies; (2) final approval authority for all
new appointments to the Mayo Clinic Staff at Mayo
Clinic Arizona; and (3) oversight of any transfer of
assets other than in the ordinary course of business.
At all relevant times, Dr. Murray was employed by
both Mayo Clinic and Mayo Clinic Arizona. Both
entities are herein jointly referred to as “Mayo.”
10. Upon information and belief, Defendant Wyatt
Decker, M.D. served as Chief Executive Officer of
Mayo Clinic Arizona and on Mayo’s Executive Operations Committee at all relevant times and played an
active and material role in Mayo’s termination of Dr.
Murray in violation of USERRA. Defendant Decker
and Georgianna Decker are husband and wife and at
all relevant times Defendant Decker acted for the
benefit of his marital community. Georgianna Decker
is named in this action solely for purposes of stating
a claim against the community assets of Wyatt
Decker’s marital community and she is not an employer
under USERRA.
11. Upon information and belief, Defendant Lois
Krahn, M.D. served as Chair of Mayo’s Personnel
Committee at all relevant times and played an active
and material role in Mayo’s termination of Dr. Murray
in violation of USERRA and the FMLA. Defendant
Krahn and Eric Gordon are husband and wife and at
all relevant times Defendant Krahn acted for the
benefit of her marital community. Eric Gordon is

App.132a
named in this action solely for purposes of stating a
claim against the community assets of Lois Krahn’s
marital community and he is not an employer under
USERRA or the FMLA.
12. Upon information and belief, Defendant
Terrence Trentman, M.D. served as Chair of the
Department of Anesthesiology at all relevant times and
played an active and material role in Mayo’s termination of Dr. Murray in violation of USERRA. Defendant
Trentman and Laralee Trentman are husband and wife
and at all relevant times Defendant Trentman acted
for the benefit of his marital community. Laralee
Trentman is named in this action solely for purposes
of stating a claim against the community assets of
Terrence Trentman’s marital community and she is
not an employer under USERRA.
13. Upon information and belief, Defendant
William Stone, M.D. served as a member of Mayo’s
Executive Operations Committee at all relevant times
and played an active and material role in Mayo’s
termination of Dr. Murray in violation of USERRA.
Defendant Stone and Maree Stone are husband and
wife and at all relevant times Defendant Stone acted
for the benefit of his marital community. Maree Stone
is named in this action solely for purposes of stating a
claim against the community assets of William Stone’s
marital community and she is not an employer under
USERRA.
14. Upon information and belief, Defendant David
Rosenfeld, M.D. served as Vice-Chair of the Department
of Anesthesiology at all relevant times and played an
active and material role in Mayo’s termination of Dr.
Murray in violation of USERRA. Defendant Rosenfeld
and Melissa Rosenfeld are husband and wife and at

App.133a
all relevant times Defendant Rosenfeld acted for the
benefit of his marital community. Melissa Rosenfeld
is named in this action solely for purposes of stating
a claim against the community assets of David
Rosenfeld’s marital community and she is not an
employer under USERRA.
15. Upon information and belief, Defendant Roshanak Didehbon served as the Administrator for the
Department of Anesthesiology at Mayo at all relevant
times and played an active and material role in Mayo’s
termination of Dr. Murray in violation of USERRA.
16. At all relevant times, Defendants Decker,
Krahn, Trentman, Stone, Rosenfeld, and Didehbon (the
“Individual Defendants”) were persons to whom Mayo
had delegated the performance of employment-related
responsibilities. Defendants Decker, Krahn, Trentman,
Stone, Rosenfeld, and Didehbon are therefore liable
as “employers” pursuant to § 4303(4)(A)(i) of USERRA.2
17. At all times herein relevant, Dr. Murray was
a member of the United States Army Reserve and an
employee of Mayo.
Allegations Common to All Causes of Action
18. Mayo is a nonprofit medical practice and
medical research group based in Rochester, Minnesota.
Mayo effectively dominates the field and is the largest
integrated nonprofit medical group practice in the
2 It is believed that Mayo delegated similar authority to other
individuals within Mayo, such as members of Mayo’s Personnel
Committee and its Executive Operations Committee. As other
individuals are identified through discovery, Dr. Murray will
seek leave to amend this Complaint to add the additional individual defendants.

App.134a
world. Its research funding alone exceeds $600,000,000
and is derived from such sources as governmental
grants, industry, multiple foundations, and benefactor
gifts. Mayo’s total revenue from current activities is
approximately $8,000,000,000.
19. Dr. Murray is a physician, husband, and
father who proudly began his medical tenure with
Mayo 38 years ago as an intern in the Mayo Clinic in
Rochester, Minnesota. Since being appointed to the
staff in 1986 he has served with distinction at Mayo
in a variety of capacities in Rochester, Jacksonville,
and in Arizona.
20. At the time of his termination, Dr. Murray
was serving as a Consultant in the Division of Cardiovascular and Thoracic Anesthesia within the Department of Anesthesiology. He was also a Professor of
Anesthesiology at the Mayo Clinic College of Medicine
and held teaching and examining privileges in Molecular Pharmacology and Experimental Therapeutics
with the Mayo Graduate School.3
21. Dr. Murray has received numerous professional honors and accolades throughout his career,
including but not limited to “Clinician of the Year” at
Mayo Clinic Rochester, “Researcher of the Year” from
the American Society of Parenteral and Enteral
Nutrition, and “Benedictine College Alumnus of the
Year.” Dr. Murray is certified through the American
Board of Anesthesiology, the American Board of
3 Dr. Murray meets the FMLA’s statutory requirement of
having worked 1250 hours in the 12 months preceding his request
for FMLA leave, as discussed below, when his time spent
working at Mayo upon his return from military duty is coupled
with his time spent on military duty.

App.135a
Internal Medicine, the American Heart Association,
and the National Board of Medical Examiners. He is
a respected author, having written the number one
selling anesthesia textbook in the world, and frequent
public speaker here in the United States and overseas.
22. Dr. Murray routinely has and continues to
volunteer his time to community and charitable
organizations. For example, Dr. Murray and his wife
Cate have served as foster parents and as sponsors
to multiple refugees seeking asylum in the United
States. Dr. Murray has also served as a youth mentor
and in volunteer and leadership roles with the Boy
Scouts of America, Big Brothers/Big Sisters, and multiple religious organizations. He has even volunteered
his time as a member of the church choir.
23. Dr. Murray is also a soldier; a decorated military veteran who has honorably served his country
throughout the world, including in combat zones in
Iraq, Kuwait, and Afghanistan. Dr. Murray has been
a member of the U.S. military for approximately 30
years.
24. Dr. Murray was called to active duty for his
most recent military deployment in March of 2012
and timely informed Mayo of his upcoming military
obligation. He spent this tour providing care in the
intensive care unit and operating theaters to critically
wounded soldiers in the immediate hours after they
were evacuated from the battlefields of Afghanistan.
25. Dr. Murray’s military orders originally identified a six-month tour but the military extended his
tour for several additional months to handle the large
volume of critically wounded United States soldiers.

App.136a
26. Unfortunately, by fall of 2012, the constant
daily influx of critically wounded and dying young
soldiers took a heavy toll on Dr. Murray and he was
diagnosed by the military with Post Traumatic Stress
Disorder (“PTSD”), chronic depression, chronic anxiety
disorder, and Attention Deficit Hyperactivity Disorder
(“ADHD”). While Dr. Murray had struggled at times
with depression and anxiety prior to the deployment,
he had always been able to successfully manage his
symptoms so that he could perform his job a high
level. But the symptoms of depression and anxiety
were aggravated during this latest deployment by
attending to wave after wave of disfigured and dying
young American soldiers.
27. Over the next several months, Dr. Murray’s
symptoms improved dramatically with professional
counseling, medication, and personal stress relieving
techniques. On or about October 10, 2013, he passed
his exit physical and was honorably discharged from
active duty in the military. Rather than taking his
full statutory 90-day rest period after his release
from active duty, Dr. Murray agreed to return to
Mayo early. Thus, instead of returning to Mayo in
January of 2014, he agreed to return to his medical
practice at Mayo in November of 2013.
28. Dr. Murray’s military obligations and time
away inconvenienced Mayo and some of his coworkers.
Mayo’s leadership began to think that Dr. Murray’s
military status–in particular his most recent, unex-

App.137a
pectedly extended deployment–negatively impacted his
appropriateness for the positions he held with Mayo.4
29. Strangely, although Dr. Murray had been
permitted to devote one day each workweek to research
administration prior to his military deployment, Mayo
scheduled him to be in the operating room (“OR”) all
five days each work week after he returned from his
deployment.
30. On February 19, 2014, Dr. Murray was
covering Operating Room 6 (“OR 6”) at Mayo Hospital in Phoenix, in which a patient was to be anesthetized before undergoing an operation. Dr. Murray
entered OR 6 and assumed his usual position to the
immediate left of the head of the patient in a confined space between two IV poles, the anesthesia
machine and monitoring equipment, and the certified
registered nurse anesthetist.
31. The nurse anesthetist began administering a
powerful sedative to the patient while Dr. Murray
monitored the patient’s vital signs and entered information into the computer. While still semi-conscious,
the patient complained of a burning sensation in her
arm and the nurse therefore asked Dr. Murray to
turn off the blood pressure cuff. Dr. Murray calculated
the time necessary for the sedative to clear the intravenous tubing and pressed the “reset” button on the
anesthesia monitoring equipment, which controlled
the computerized blood pressure cuff, to stop the
inflation of the cuff for 45 seconds.
4 The cumulative length of Dr. Murray’s nonexempt periods of
military service, however, including his most recent deployment,
did not exceed five years.

App.138a
32. Suddenly and inexplicably, a Senior Associate
Consultant named Dr. James Chien, who had previously entered the operating room unannounced and
had been standing inside the double doors approximately 10-12 feet from the patient, squeezed into the
small space in which Dr. Murray was working, and
began attempting to manipulate the anesthesia monitoring equipment. Startled, Dr. Murray asked “What
are you doing?” and directed Dr. Chien to stop immediately. When Dr. Murray received no response, he
reached up to attempt to block Dr. Chien’s hand from
the machine to prevent his continued tampering with
the equipment. Without saying anything, Dr. Chien
batted Dr. Murray’s hand away.
33. Concerned about the safety of his patient
and alarmed by Dr. Chien’s actions at this critical
juncture in the medical procedure, Dr. Murray pulled
Dr. Chien away from the patient. Dr. Chien then
stood between Dr. Murray and his patient in this
very confined space. Dr. Murray instructed him to
move but Dr. Chien did not move and did not speak.
To gain access to and to ensure the safety of his
patient, Dr. Murray attempted to push Dr. Chien out
of the way and toward the door, stating “Get out of
this room. We will talk about this later!” Dr. Murray
repeated his request two more times before Dr.
Chien ultimately left, as quickly as he had appeared,
without saying a word. The entire event took less
than a minute.
34. About 30 minutes later, Dr. Chien approached
Dr. Murray and apologized for the earlier incident.
After Dr. Murray accepted his apology they walked
into the recovery room to a patient that Dr. Chien
had taken out of the OR and had to re-intubate. Dr.

App.139a
Chien intended to turn the patient’s care over to Dr.
Murray and explained that the patient had a smaller
than normal tracheal tube inserted for an orthopedic
operation because of her pre-existing spasmodic dysphonia of her vocal cords. According to Dr. Chien,
when Dr. Chien attempted to re-intubate the patient,
she had swelling of her vocal cords.
35. Given the patient’s underlying medical condition and based upon Dr. Murray’s experience, swelling
of the vocal cords did not make sense physiologically
and Dr. Murray relayed that fact to Dr. Chien. Dr.
Murray then asked Dr. Chien if he had already
arranged for the patient to go to the ICU. Dr. Chien
responded that he had not. Dr. Murray told Dr.
Chien that he would take care of the patient and Dr.
Chien departed.
36. When Dr. Murray arrived at Mayo Hospital
the next day, he was interviewed by Dr. David
Rosenfeld and Ms. Roshanak Didehbon. Dr. Murray
thought at the time that Mayo was planning to discipline Dr. Chien because of Dr. Chien’s mistakes on the
previous day. Therefore, Dr. Murray told Dr. Rosenfeld
and Ms. Didehbon that Dr. Chien had already apologized and that, in his mind, the situation was
resolved. But these individuals were not investigating
Dr. Chien’s errors; instead, Mayo placed Dr. Murray
on administrative leave pending disciplinary action.
37. After sitting for a few days on administrative
leave without any information regarding Mayo’s intentions, Dr. Murray began to struggle with some of the
symptoms that he used to experience from his PTSD
and other military-service-related disabilities. He therefore requested to be placed on medical leave under
the Family Medical Leave Act (“FMLA”) in order to

App.140a
seek medical treatment for the symptoms. Mayo
granted his request and placed him on FMLA leave
so that he could seek and receive treatment. Still
shocked by the turn of events, he sent an email on
February 26, 2014, to Dr. Lois Krahn, who was Chair
of the Personnel Committee, asking when he would
be permitted to tell his side of the story.
38. Mayo saw this incident as an opportunity to
terminate Dr. Murray, whose PTSD, other servicerelated disabilities and their symptoms concerned
some of the Mayo leadership and whose military obligations had become burdensome and inconvenient to
Mayo.
39. On April 16, 2014, Dr. Krahn and Dr. Terry
Trentman, Chair of the Department of Anesthesiology,
finally met with Dr. Murray to discuss his employment
status. Dr. Murray tried to explain that his actions
on February 19, 2014 were meant to protect a vulnerable patient under his care from what Dr. Murray
perceived at the time to be an imminent threat—at
least until he could determine why Dr. Chien was
manipulating the anesthesia machine at the same
time that Dr. Murray’s patient was receiving a dangerous sedative.5
40. But despite his explanation and the underlying circumstances, Dr. Murray was accused of violating
Mayo’s “Mutual Respect” policy. Mayo’s decision was
all the more peculiar to Dr. Murray because Mayo
5 Notably, Dr. Murray had previously served as an expert witness
in litigation involving the federal Anti-Tampering Act (18 U.S.C.
§ 1365), which makes it a crime to tamper with any drug or
medical device with reckless disregard for the risk that another
person will be placed in danger of bodily injury or death.

App.141a
states that its “Primary Value” is: “The needs of the
patient come first,” and Dr. Murray was simply
trying to protect a Mayo patient under his care.
41. Dr. Krahn’s and Dr. Trentman’s accusations
during the meeting were not limited to the events of
February 19, 2014, however. Dr. Krahn also brought
up Dr. Murray’s FMLA leave and the medical basis for
the leave, stating: “‘Anger management and concentration difficulties,’ we cannot have someone like that in
the operating room or on staff” or words to that effect.
42. Dr. Trentman accused Dr. Murray during the
same meeting of being dishonest on his medical recredentialing application when he returned from his
latest military deployment because he did not disclose
the symptoms of the service-related disabilities that
Dr. Murray incurred or aggravated during his military
deployment. Dr. Murray responded by saying that he
did not disclose the PTSD from his military deployment because his symptoms were under control, he
was able to perform his job without difficulty, and he
was not seeking an accommodation at that time.
43. Dr. Krahn then told Dr. Murray that he would
remain on administrative leave indefinitely and that
Dr. Krahn would contact him about a follow-up meeting. It was clear to Dr. Murray at this point that Mayo
was trying to find any reason to terminate him.
44. The follow-up meeting occurred on April 24,
2014. At this meeting, Dr. Krahn accused Dr. Murray
of additional policy violations based upon the February
19, 2014 incident. This time, Dr. Krahn accused Dr.
Murray of violating Mayo’s “Workplace Violence” and
“Unacceptable Conduct and Disruptive Behavior”
policies. Dr. Krahn then presented Dr. Murray with

App.142a
an ultimatum; he must either voluntarily resign
from his 30+-year-long employment with Mayo, or
Mayo would terminate his employment. Dr. Krahn
also threatened to report Dr. Murray to the Arizona
Board of Medical Practice if he did not voluntarily
resign.
45. Thus, Mayo’s stated reasons for terminating
Dr. Murray changed over time, including: (1) Dr. Trentman’s accusations during the April 16, 2014 meeting
that Dr. Murray was dishonest on his re-credentialing
application upon his return from military duty because
he did not disclose his PTSD or other service-related
disabilities; (2) Dr. Krahn’s statements during the same
meeting that someone with Dr. Murray’s medical condition and/or symptoms could not be on Mayo’s staff;
(3) Dr. Krahn’s claim during the same meeting that
Dr. Murray violated Mayo’s “Mutual Respect” policy;
and finally (4) accusations during the April 24, 2014
meeting that Dr. Murray violated Mayo’s “Workplace
Violence” and “Unacceptable Conduct and Disruptive
Behavior” policies.
46. On May 9, 2014, while Dr. Murray was still
employed by Mayo, Dr. Murray’s legal counsel sent a
letter to Nancy Cummings, General Counsel for
Mayo, which detailed the specific sections of the
Uniformed Services Employment and Reemployment
Rights Act (“USERRA”) that Mayo’s proposed action
would violate. The letter also detailed precisely how
Mayo’s proposed actions would violate those sections
of USERRA. Following an in-depth factual and legal
analysis, the letter stated:
[T]his letter is meant to put Mayo on notice
that its threatened termination of Dr. Murray
is prohibited by USERRA’s strict mandates

App.143a
and further, to memorialize that Mayo is/was
on notice. Thus, after reviewing this letter,
Mayo and the individual decision makers will
proceed at their own peril if Mayo terminates
Dr. Murray.
47. It appears that Mayo made no further inquiry
into the law’s application to the facts after receiving
the cautionary letter. Instead, Mayo ignored the facts
and legal analysis in the letter, disregarded the cautionary language, and terminated Dr. Murray effective
May 19, 2014.
48. Mayo’s termination of Dr. Murray was formalized in a letter signed by Defendants Trentman and
Krahn, in which they claimed that Mayo terminated Dr.
Murray’s employment based upon Dr. Murray’s actions in the OR on February 19th, as well as the tone
Dr. Murray used in his subsequent conversation with
Dr. Chien outside the OR (an entirely new basis for the
termination). Mayo claimed in the termination letter
that Dr. Murray’s actions on February 19th violated
Mayo’s Mutual Respect policy, its Workplace Violence
policy, and its Unacceptable Conduct and Disruptive
Behavior policy. Specifically, the letter claimed that
the termination was based upon, inter alia, the fact
that Dr. Murray “lost [his] temper” and because of
his “display of workplace anger and hostility.”
49. Mayo’s termination of Dr. Murray’s employment was in fact motivated by Dr. Murray’s military
status and/or military activities, as well as his military
service-related PTSD, other service-related disabilities,
and their symptoms.
50. Upon information and belief, each of the individual defendants materially contributed to and/or

App.144a
facilitated Dr. Murray’s termination and the actions
of each of the individual defendants were motivated
in part by Dr. Murray’s military status, military
activities, and/or his military service-related disabilities.
51. As stated above, Mayo dominates the medical
field. Since Mayo terminated his employment, Dr.
Murray has tried unsuccessfully to find new employment despite his impressive credentials and extensive
experience.
52. As a result of Defendants’ conduct, Dr. Murray
has suffered and continues to suffer lost income, lost
benefits, mental anguish, emotional distress, pain
and suffering, humiliation, inconvenience, harm to
reputation, and loss of enjoyment of life.
COUNT 1
(Wrongful Discharge in Violation of § 4311(a) of
USERRA) Against All Defendants
53. Dr. Murray hereby incorporates and re-alleges
all allegations set forth above as if fully set forth
herein.
54. USERRA prohibits employers from discriminating against or retaliating against soldiers based
upon their military status, military obligations, or
service in the military. Defendants violated Dr.
Murray’s USERRA rights by discharging him motivated in part by his military status, military obligations, and/or his service in the military.
55. Discriminatory motive can be inferred from
the circumstances surrounding Mayo’s termination
of Dr. Murray, including but not limited to: (1) Mayo
began its efforts to terminate Dr. Murray a mere
three months after his return from military duty; (2)

App.145a
Mayo’s stated reasons for disciplining and ultimately
terminating Dr. Murray continued to change over time;
(3) Dr. Krahn’s and Dr. Trentman’s negative statements regarding the PTSD and other military-servicerelated disabilities that Dr. Murray incurred and/or
aggravated during his most recent military deployment;
and (4) the unexplained change in Dr. Murray’s work
schedule upon his return from military service.
56. Mayo’s actions were willful. Mayo engaged in
these actions toward Dr. Murray with malice or reckless
indifference to Dr. Murray’s federally protected rights.
As a direct result of Defendants’ actions, Dr. Murray
has suffered damages in an amount to be proven at
trial.
COUNT II
(Wrongful Discharge in Violation of § 4316(c) of
USERRA) Against All Defendants
57. Dr. Murray hereby incorporates and re-alleges
all allegations set forth above as if fully set forth
herein.
58. Dr. Murray returned to Mayo from his military deployment in November of 2013. USERRA expressly prohibited Defendants from discharging Dr.
Murray for a period of one year after he returned
from his military deployment, unless Defendants
could prove that they had sufficient cause to support
the termination.
59. USERRA further requires Defendants to
prove that the purported cause for the termination
was reasonable under the circumstances. It was not
reasonable for Mayo to discharge Dr. Murray for
taking actions that he thought were immediately

App.146a
necessary to protect a vulnerable patient under his
care, particularly when Mayo’s Primary Value is
“The needs of the patient come first.”
60. Mayo’s actions were willful. Mayo engaged in
these actions toward Dr. Murray with malice or reckless
indifference to Dr. Murray’s federally protected rights.
As a direct result of Defendants’ actions, Dr. Murray
has suffered damages in an amount to be proven at
trial.
COUNT III
(Failure to Make Reasonable Efforts to Accommodate
Service-Connected Disability in Violation of
§ 4313(a)(3)–(4) of USERRA) Against All Defendants
61. Dr. Murray hereby incorporates and re-alleges
all allegations set forth above as if fully set forth
herein.
62. Dr. Murray was entitled to reemployment
(and was, in fact, reemployed) upon completion of his
most recent military deployment because he met all
applicable criteria for reemployment.
63. Mayo was thereafter required pursuant to
USERRA to make reasonable efforts to accommodate
Dr. Murray’s PTSD and other service-related disabilities once Mayo learned of them so as to enable
Dr. Murray to perform the essential tasks of his position. If no such reasonable accommodation could be
found, Mayo was required to offer Dr. Murray an
equivalent or substantially equivalent position that
he could perform with his service-related disabilities.
64. Dr. Murray’s actions in the operating room
on February 19, 2014 were not misconduct. They were
the reasonable actions of an experienced physician,

App.147a
acting on impulse to protect his vulnerable patient
from a perceived threat. But even if Mayo truly considered Dr. Murray’s actions inappropriate and that
he lost his temper, anxiety and anger management
issues were two symptoms of (or conduct resulting
from) the PTSD and service-related disabilities that
Dr. Murray incurred or aggravated during his most
recent military deployment.
65. Mayo was aware before terminating Dr.
Murray, and likely before the February 19, 2014 incident, that Dr. Murray had incurred or aggravated his
PTSD and other service-related disabilities while on
his most recent military deployment. Dr. Murray’s
supervisors even cited to his service-related disabilities,
their symptoms, and/or conduct resulting from his
disabilities before making the decision to terminate
him. His supervisors again cited to his disabilities,
their symptoms, and/or conduct resulting from the
disabilities in his termination letter.
66. Mayo did not make reasonable efforts to
accommodate Dr. Murray’s PTSD and other servicerelated disabilities and did not offer him an equivalent
or substantially equivalent position. Instead, Mayo
terminated him based upon his PTSD and other
service-related disabilities.
67. Mayo’s actions were willful. Mayo engaged in
these actions toward Dr. Murray with malice or reckless indifference to Dr. Murray’s federally protected
rights. As a direct result of Defendants’ actions, Dr.
Murray has suffered damages in an amount to be
proven at trial.

App.148a
COUNT IV
(Discriminatory Termination in Violation
of the FMLA) Against Mayo Clinic,
Mayo Clinic in Arizona, & Dr. Krahn
68. Dr. Murray hereby incorporates and re-alleges
all allegations set forth above as if fully set forth
herein.
69. As detailed above, Dr. Murray met all requirements as an eligible employee for job-protected leave
pursuant to the FMLA. Dr. Murray requested FMLA
leave for a qualifying reason and Mayo in fact
granted the request and placed Dr. Murray on FMLA
leave.
70. Mayo is a covered employer under the FMLA.
Dr. Krahn acted in the interest of Mayo and exercised authority over Dr. Murray in her official position.
Dr. Krahn was responsible in whole or in part for Dr.
Murray’s termination in violation of the FMLA.
71. Dr. Krahn, as Chair of Mayo’s Personnel
Committee, cited to the medical basis for Dr. Murray’s
FMLA leave during the April 16, 2014 meeting and
stated that an individual with those symptoms could
not continue to serve on the staff at Mayo. Mayo
terminated Dr. Murray in a letter signed by Dr. Krahn
just one month after the April 16, 2014 meeting and
within two months of Dr. Murray’s request for FMLA
leave.
72. Mayo based its termination of Dr. Murray on
his use of or request for FMLA leave. Mayo’s termination of Dr. Murray was therefore in violation of the
FMLA.

App.149a
73. Mayo engaged in these actions toward Dr.
Murray with malice or reckless indifference to Dr.
Murray’s federally protected rights. As a direct result
of Defendants’ actions, Dr. Murray has suffered damages in an amount to be proven at trial.
COUNT V
(Failure to Reasonably Accommodate in
Violation of the ADA) Against Mayo Clinic and
Mayo Clinic in Arizona
74. Dr. Murray hereby incorporates and re-alleges
all allegations set forth above as if fully set forth
herein.
75. Dr. Murray is an individual with a disability
within the meaning of the Americans with Disabilities
Act (“ADA”) in that he has, or at relevant times had,
a mental or physical impairment that substantially
limits one or more of his major life activities, a record
of such impairment, and/or was regarded by Mayo as
having such an impairment.
76. Mayo knew of Dr. Murray’s service-related
disabilities prior to terminating him and, upon information and belief, knew about it before the February
19, 2014 incident.
77. Dr. Murray was qualified for his position, was
competently performing the essential tasks of his
position, and with reasonable accommodation could
have continued to perform the essential tasks of his
position.
78. Mayo was aware before terminating him that
Dr. Murray likely required a reasonable accommodation because of his PTSD and other service-related

App.150a
disabilities but failed to engage in the interactive
process to identify a reasonable accommodation.
79. Mayo did not make reasonable efforts to accommodate Dr. Murray’s PTSD and other service-related
disabilities. Instead, Mayo terminated him based
upon his PTSD and other service-related disabilities.
80. Mayo engaged in these actions toward Dr.
Murray with malice or reckless indifference to Dr.
Murray’s federally protected rights. As a direct result
of Defendants’ actions, Dr. Murray has suffered damages in an amount to be proven at trial.
COUNT VI
(Unlawful Termination in Violation of the ADA)
Against Mayo Clinic and Mayo Clinic in Arizona
81. Dr. Murray hereby incorporates and re-alleges
all allegations set forth above as if fully set forth
herein.
82. Dr. Murray is an individual with a disability
within the meaning of the Americans with Disabilities
Act (“ADA”) in that he has, or at relevant times had,
a mental or physical impairment that substantially
limits one or more of his major life activities, a record
of such impairment, and/or was regarded by Mayo as
having such an impairment.
83. Dr. Murray was qualified for his position, was
competently performing the essential tasks of his
position, and with reasonable accommodation could
have continued to perform the essential tasks of his
position.
84. Mayo knew of Dr. Murray’s service-related
disabilities, or at least regarded him as disabled, prior

App.151a
to terminating him and likely before the February
19, 2014 incident. Dr. Krahn and Dr. Trentman both
cited to Dr. Murray’s PTSD and service-related disabilities, their symptoms, and/or conduct resulting from
those disabilities during the April 16, 2014 meeting
as a basis for possible discipline and/or termination.
This meeting occurred prior to Mayo’s decision to
terminate Dr. Murray. Mayo’s termination letter also
cited to symptoms of Dr. Murray’s PTSD and other
service-related disabilities.
85. Mayo terminated the employment of Dr.
Murray in violation of the ADA because of his actual
and/or perceived PTSD and other service-related disabilities, the symptoms of those disabilities, and/or
conduct resulting from those disabilities.
86. Mayo engaged in these actions toward Dr.
Murray with malice or reckless indifference to Dr.
Murray’s federally protected rights. As a direct result
of Defendants’ actions, Dr. Murray has suffered damages in an amount to be proven at trial.
WHEREFORE, Plaintiff prays that this Court
enter judgment against Defendants as follows:
A.

for an award of economic damages in an
amount sufficient to make Dr. Murray whole
for past lost income and benefits, and other
economic losses suffered by Dr. Murray
resulting from Defendants’ conduct;

B.

reinstatement to his former position of
employment or, in the alternative, for damages in such sum as will compensate him
for his loss of front pay and benefits;

App.152a
C.

for an award of compensatory damages for
mental anguish, emotional distress, pain and
suffering, humiliation, inconvenience, harm
to reputation, loss of enjoyment of life, and
other losses incurred by Dr. Murray as a
result of Defendants’ conduct;

D.

for an award of liquidated damages in an
amount equal to his economic damages
(including his front pay and benefits) and
his compensatory damages;

E.

for an award of punitive damages;

F.

for an order declaring that Dr. Murray’s actions to protect his patient on February 19,
2014 were reasonable under the circumstances;

G.

for all interest allowed by law, attorneys’
fees and litigation expenses, and such other
and further relief as the Court shall deem
proper.
Demand for Jury Trial

Dr. Murray hereby respectfully demands a jury
trial on all claims asserted in this First Amended
Complaint.
DATED this 29th day of August, 2014.
Blaney Law PLLC
By: /s/ Scott A. Blaney
7220 N. 16th Street, Suite J
Phoenix, Arizona 85020

Attorneys for Plaintiff

App.153a
MEMO LETTER TO DR. MURRAY
(MAY 19, 2014)
To:

Michael 3. Murray, M.D., Ph.D

From: Terrence Trentman, M.D.
Chair, Department of Anesthesiology
Lois Krahn, M.D.
Chair, Personnel Committee
Re:

Termination of Employment

On February 19, 2014 around 3:00 p.m., you were
involved in a serious physical confrontation with a
coworker while working in Operating Room #6. This
event resulted in several concerns about your conduct. In my role as Chair of the Department of
Anesthesiology, it is my responsibility to investigate
and address concerns that relate to our Department
Consultant Staff. Due to the severity of this matter, I
partnered with the Personnel Committee Choir and we
investigated and reviewed the circumstances together.
A summary of the investigation findings are
attached. Conclusions from the investigation are that
your February 19 actions towards Dr. Chien were
intentional, hostile, intimidating, excessive for the
circumstances, verbally demeaning, and physically
threatening. In the OR, you lost your temper, yelled,
and made very aggressive physical contact with Dr.
Chien while anesthesia induction was being performed
by the CRNA a few feet away. Your sudden, extreme
conduct temporarily distracted and alarmed those in
the OR, created safety risk for the patient, and
created lingering anxiety for some who remained in
the OR with you. After the OR event, you continued
to be disrespectful to Dr. Chien as he communicated

App.154a
to you airway concerns about a PACU patient. Later,
in interviews, you defended your extreme action more
than you acknowledged it, and you continue to blame
Dr. Chien for your display of workplace anger and
hostility. Regretfully, you have not demonstrated
acceptance of responsibility for your conduct.
Your conduct violated several Mayo policies. Specifically, the Mayo Mutual Respect policy, Workplace
Violence policy and Unacceptable Conduct and Disruptive Behavior policy were violated. Also Mayo
Clinic’s Commitment to Safety standards were violated.
Those standards expect communication that is respectful, nonjudgmental and non-intimidating; a responsive
and receptive attitude towards others; and management of emotions. As a Mayo Consultant, you have
been notified of these policies.
We recognize that you have provided decades of
service to Mayo, and you have served as a past leader
in Mayo Anesthesiology. However, your conduct on
February 19 was extreme and completely unacceptable in the Mayo workplace. Based on the findings in
the investigation of this matter, your conduct constitutes cause for termination. After careful thought, Mayo
has determined that termination of your employment
is reasonable and appropriate for the circumstances.
Your final day of Mayo employment is May 19, 2014.
/s/Terrence Trentman, M.D.
Chair, Department of Anesthesiology
/s/ Lois Krahn, M.D.
Chair, Personnel Committee

App.155a

Attachments:
1.
2.
3.
4.
5.
6.
7.

Summary of Investigation Findings
Mutual Respect Policy
Unacceptable Conduct and Disruptive Behavior Policy
Workplace Violence Policy
Corrective Action Policy
Appeal Policy
Mayo’s Commitment to Safety

